APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order and Notice of Mandate in the
Supreme Court of Tennessee
(June 19, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Notice of Mandate in the Supreme
Court of Tennessee
(June 20, 2019) . . . . . . . . . . . . . . . App. 3
Appendix C Order in the Court of Appeals of Tennessee
(February 28, 2019) . . . . . . . . . . . App. 5
Appendix D Order Denying Motion to Vacate
Order and Judgment in the Chancery
Court for Sevier County, Tennessee
(January 16, 2018) . . . . . . . . . . . App. 49
Appendix E Transcript in the Chancery Court for
Sevier County, Tennessee
(January 5, 2018) . . . . . . . . . . . . App. 52
Appendix F Order and Judgement in the Chancery
Court for Sevier County, Tennessee
(December 01, 2017) . . . . . . . . . . App. 79
Appendix G Amended Order in the Chancery
Court for Sevier County, Tennessee
(November 14, 2017) . . . . . . . . . . App. 84
Appendix H U.S. Const. Amend. I & XIV &
Tenn. Stat. § 35-5-118 . . . . . . . . App. 91
Appendix I Application for Permission to Appeal
in the Supreme Court of Tennessee
(April 26, 2019) . . . . . . . . . . . . . . App. 95

App. 1

APPENDIX A
IN THE SUPREME COURT OF TENNESSEE
AT KNOXVILLE
No. E2018-00232-SC-R11-CV
[Filed June 19, 2019]
__________________________
BRANCH BANKING AND )
TRUST COMPANY
)
)
v.
)
)
WAYNE R. HILL ET AL.
)
__________________________ )
Chancery Court for Sevier County
No. 16-3-118
ORDER
Upon consideration of the application for permission
to appeal of Wayne R. Hill, Cornelia D. Hill, and
Rainbow Ridge Resort, LLC and the record before us,
the application is denied.
PER CURIAM

App. 2
IN THE SUPREME COURT OF TENNESSEE
AT KNOXVILLE
No. E2018-00232-SC-R11-CV
[Filed June 19, 2019]
___________________________
BRANCH BANKING AND )
TRUST COMPANY
)
)
v.
)
)
WAYNE R. HILL ET AL.
)
__________________________ )
Sevier County Chancery Court
16-3-118
Date Printed: 06/19/2019
Notice / Filed Date: 06/19/2019
_______________________________
NOTICE - Case Dispositional Decision - TRAP
11 Denied
_______________________________
The Appellate Court Clerk’s Office has entered the
above action.
James M. Hivner
Clerk of the Appellate Courts

App. 3

APPENDIX B
IN THE SUPREME COURT OF TENNESSEE
AT KNOXVILLE
No. E2018-00232-SC-R11-CV
[Filed June 20, 2019]
__________________________
BRANCH BANKING AND )
TRUST COMPANY
)
)
v.
)
)
WAYNE R. HILL ET AL.
)
__________________________ )
Sevier County Chancery Court
16-3-118
Date Printed: 06/20/2019
Notice/ Filed Date: 06/20/2019
_______________________________
NOTICE - Mandate - Issued
_______________________________
The Appellate Court Clerk’s office has issued the Court
of Appeals mandate in its entirety to the trial court
clerk in the above-styled appeal. The mandate consists
of certified copies of the judgment, any order as to
costs, and a copy of the opinion. This action signifies
the end of the appeal.
The Appellate Court Clerk’s office will not accept any
filing from any parties or their counsel after issuance

App. 4
of mandate except those requesting recall of the
mandate, those related to withdrawing the record or
portions thereof, and those related to the assessment of
costs.
James M. Hivner
Clerk of the Appellate Courts

App. 5

APPENDIX C
IN THE COURT OF APPEALS OF TENNESSEE
AT KNOXVILLE
No. E2018-00232-COA-R3-CV
October 18, 2018 Session
[Filed February 28, 2019]
__________________________
BRANCH BANKING AND )
TRUST COMPANY
)
)
v.
)
)
WAYNE R. HILL ET AL.
)
__________________________ )
Appeal from the Chancery Court for
Sevier County
No. 16-3-118
Telford E. Forgety, Jr., Chancellor
In this action for a deficiency judgment following the
foreclosure sale of six tracts of real property, some of
which were improved by resort cabins, the trial court
granted the plaintiff bank’s motion for partial
summary judgment against the defendant real estate
developers and their limited liability company, for
which the developers were guarantors, finding that the
developers were liable for deficiency balances owed on
promissory notes and guaranty agreements, as well as
accrued interest, bank charges, late fees, and attorney’s

App. 6
fees. Following a bench trial concerning the amounts
owed, the trial court awarded money judgments to the
bank in the amounts, respectively, of $1,180,223.77
against the developers as individuals and $144,848.30
against the developers’ limited liability company.
Finding, inter alia, that the developers had failed to
properly plead the defense of inadequate foreclosure
sales prices, the trial court sustained the bank’s
objections to the developers’ requests to cross-examine
the bank’s witnesses and introduce additional evidence
regarding the adequacy of the foreclosure sales prices
and foreclosure process. The trial court subsequently
denied the developers’ motion to vacate the order
granting the money judgments. The developers have
appealed. Discerning no reversible error, we affirm.
Tenn. R. App. P. 3 Appeal as of Right;
Judgment of the Chancery Court Affirmed;
Case Remanded
THOMAS R. FRIERSON, II, J., delivered the opinion of the
court, in which JOHN W. MCCLARTY and KENNY W.
ARMSTRONG, JJ., joined.
John Frank Higgins, Nashville, Tennessee, for the
appellants, Wayne R. Hill, Cornelia D. Hill, and
Rainbow Ridge Resort, LLC.
John M. Kizer and W. Morris Kizer, Knoxville,
Tennessee, for the appellee, Branch Banking and Trust
Company.

App. 7
OPINION
I. Factual and Procedural Background
The plaintiff, Branch Banking and Trust Company
(“the Bank”), initiated the instant action by filing a
complaint in the Sevier County Chancery Court (“trial
court”) on March 18, 2016, seeking a judgment for
balances owed on promissory notes and guaranty
agreements related to parcels of real property and
resort cabins located in the Rainbow Ridge Resort
project in Sevierville, Tennessee. The Bank also sought
attorney’s fees as provided for in the promissory notes
at issue. The Bank initially named as defendants
Wayne R. Hill and Cornelia D. Hill (“the Hills”);
Rainbow Ridge Resort, LLC (“Rainbow Ridge”); Tyler
C. Huskey, Successor Trustee (“Mr. Huskey”); the State
of Tennessee (“the State”); and Rainbow Ridge Owners
Association, Inc. (“the Owners Association”). The
defendants involved in this appeal are the Hills and
Rainbow Ridge (collectively, “Appellants”). It is
undisputed that at all times relevant to this appeal, the
Hills were the only members of Rainbow Ridge, a
Tennessee limited liability company that had been
administratively dissolved by the Tennessee Secretary
of State in August 2011.
The Bank’s claims against the Hills individually
concerned allegations of default related to four
promissory notes, identified in the complaint as “Note
4,” “Note 9,” “Note 14,” and “Note 15” (collectively “the
Hill Notes”). Attached as exhibits to the complaint were
copies of the Hill Notes and corresponding deeds of
trust, each of which had each been initially executed in
2005 or 2006 and duly recorded with the Sevier County

App. 8
Register of Deeds. Each of the deeds of trust included
a clause following the specific property description
stating: “TOGETHER WITH all rents, all
improvements now or hereafter erected on the
property, all easements, all fixtures, now or hereafter
a part of said property . . . .” Neither the original deeds
of trust securing the Hill Notes nor the corresponding
successor trustee deeds executed at the time of the
foreclosure sales describe specific improvements.
However, testimony presented during trial concerning
the amounts of the deficiency judgments indicated that
by the time of the foreclosure sales, three of the four
land parcels encumbered by the Hill Notes (all but that
encumbered by Note 4) had each been improved by the
construction of a cabin.
At the time of trial, the Bank averred that the
principal balance owed on Note 4 was $66,069.77 with
accrued interest of $24,317.36 and bank charges of
$3,339.38; the principal balance owed on Note 9 was
$447,871.82 with accrued interest of $127,229.81 and
bank charges of $4,368.00; the principal balance owed
on Note 14 was $360,000.00 with accrued interest of
$102,267.50 and bank charges of $1,100.00; and the
principal owed on Note 15 was $359,040.00 with
accrued interest of $101,994.78 and bank charges of
$4,529.12.
The claims against Rainbow Ridge and the Hills,
jointly and severally, involved a promissory note and
guaranty agreement, identified as “the Rainbow Note,”
executed by the Hills on behalf of Rainbow Ridge in the
original principal amount of $800,000.00 in March
2007. The documents pertaining to the Rainbow Note

App. 9
were also admitted as exhibits at trial. The Rainbow
Note was partially secured by two simultaneously
executed deeds of trust, encumbering, respectively, an
8.17-acre tract and a 16.8-acre tract of real property.
The deeds of trust related to the Rainbow Note were
duly recorded. Each deed of trust indicated that it
“secure[d] an obligation incurred for the construction of
an improvement on land . . . .” The Bank alleged that
Rainbow Ridge and the Hills, as guarantors, owed a
principal amount on the Rainbow Note in the amount
of $723,811.00, with accrued interest by the time of
trial in the amount of $139,273.30 and bank charges of
$5,575.00. W. Morris Kizer testified that at the time of
the foreclosure sale on May 13, 2016, the 16.8-acre
tract remained unimproved.1
For each of the Hill Notes, the Bank’s allegations of
default against the Hills included nonpayment of
county real estate taxes on the encumbered properties
and failure to pay the notes upon maturity. Concerning
Note 4, the Bank also averred that the Hills had failed
to pay a state tax lien against the encumbered
property, the sole property encumbered by a Hill Note
that had not been improved by a cabin. As to the
Rainbow Note, the Bank’s allegations of default against

1

During an offer of proof following the trial court’s ruling at the
close of trial, Mr. Hill stated that at the time of the foreclosure
sale, the 8.17-acre tract consisted of 29 lots with one of those lots
having a cabin on it. He stated that the “infrastructure” of “water,
sewer, cable and electrical” had been added and that the 8.17-acre
tract had also been improved by the construction of two swimming
pools and a pool house. The record contains no other indication of
improvements to the 8.17-acre tract encumbered by the Rainbow
Note.

App. 10
the Hills included nonpayment of county real estate
taxes on the encumbered properties, failure to pay a
state tax lien against the 8.17-acre tract, failure to pay
the Rainbow Note upon its maturity, and the 2011
administrative dissolution of Rainbow Ridge as an
LLC.
Based on a “dragnet clause” included in the
amended and modified promissory note concerning
Note 4, the Bank asserted in its complaint that Note 4
encumbered not only the 9.27-acre tract but also the
other tracts encumbered by the Hill Notes and the
Rainbow Note. The Bank thereby requested an order
directing a judicial foreclosure of the 9.27-Acre Deed of
Trust securing Note 4. See Higdon v. Regions Bank,
No. E2009-01298-COA-R3-CV, 2010 WL 1924019, at *5
(Tenn. Ct. App. May 13, 2010) (“A dragnet clause is
defined as ‘one which, on its face, purports to include
within the coverage of the deed of trust all present and
future indebtedness owed by the borrower to the lender
in addition to the specific debt being secured by the
deed of trust.’” (quoting In re Lemka, 201 B.R. 765, 767
n.2 (Bankr. E.D. Tenn. 1996))). The dragnet clause
included in the most recently modified version of Note
4 provides in pertinent part:
[I]n the event of a default under any of the
Agreements or any other obligation of Borrowers
. . . then any one of the same shall be a material
default hereunder, and this Note and any other
indebtedness due the Bank by Borrowers shall
immediately become due and payable at the
option [o]f the Bank without notice, or demand
of any kind, which are hereby waived.

App. 11
An essentially identical dragnet clause is included in
the most recently modified version of each of the
promissory notes at issue.
Appellants and the Owners Association responded
to the complaint by filing a motion to dismiss and
subsequent corrected motion to dismiss, asserting, inter
alia, that the Bank had improperly split its claims
because among the claims included in the instant
complaint were ones related to cabins and tracts of real
property that were the partial subject of litigation
pending in the appellate process at the time. As to
Mr. Huskey, the Bank had clarified in its complaint
that it had named Mr. Huskey as a defendant “solely in
his capacity as the successor trustee” under the deed of
trust for the 9.27-acre tract securing Note 4 upon an
“Appointment of Successor Trustee” executed by the
Bank on March 15, 2016, and recorded with the
Register of Deeds on the next day. Mr. Huskey did not
participate in the filing of the motion to dismiss. The
Bank filed a response on August 3, 2016, objecting to
the corrected motion to dismiss.
In the related action involving Appellants and the
Bank, this Court entered a decision on December 28,
2016. See Rainbow Ridge Resort, LLC v. Branch
Banking & Trust Co., 525 S.W.3d 252 (Tenn. Ct. App.
Dec. 28, 2016), perm. app. denied (Tenn. May 18, 2017)
(“Rainbow Ridge Resort”). In Rainbow Ridge Resort,
this Court summarized the underlying facts,
procedural history, and ultimate affirmance of the trial
court’s dismissal of that action, which had been
initiated by Appellants against the Bank, as follows:

App. 12
The facts in this case implicate the doctrine
of res judicata. In 2012, a real estate
development limited liability company and its
members filed suit in the Sevier County Circuit
Court against their mortgage lender, Branch
Banking and Trust Company (the bank). In that
action, the developers alleged, inter alia, that
the bank was guilty of fraud, breach of contract,
and unjust enrichment. That suit involved four
separate parcels of real property. While the case
in circuit court was pending, the bank sued
three individuals in the Sevier County Chancery
Court, seeking a declaratory judgment regarding
the priority of a security interest in one of the
parcels of property at issue in the circuit court
case. In the chancery court action, the bank
joined the developers as parties. In response, the
developers filed a counterclaim in which they
repeated allegations included in the circuit court
case and asserted other claims derived from the
same set of facts. The two cases were later
consolidated. In each case, the bank filed a
Tenn. R. Civ. P. 12.02(6) motion to dismiss for
failure to state a claim. The court heard both
motions at a single hearing. On June 8, 2015,
the trial court filed two orders—one in the
circuit court suit and one by interchange in the
chancery court action—granting the bank’s
motions. The developers appealed only the
circuit court order. Unchallenged, the chancery
court order became final. The bank later moved
to dismiss this appeal, arguing that the doctrine
of res judicata barred further litigation. We
deferred a ruling on the bank’s motion. We now

App. 13
hold that the motion has merit. Accordingly, we
affirm the trial court’s judgment dismissing this
case. We do so based upon the doctrine of res
judicata.
Id. at 254-55.
Meanwhile in the case at bar, the trial court entered
an order on November 4, 2016, approving the voluntary
dismissal without prejudice of the Bank’s claim against
the State and removing the State as a defendant. The
Bank filed a “First Amended Complaint” on
December 6, 2016, again naming as defendants the
Hills, Rainbow Ridge, Mr. Huskey, and the Owners
Association, while also adding multiple additional
defendants. In its first amended complaint, the Bank
sought deficiency judgments against the various
defendants, averring that since the filing of the initial
complaint, foreclosure sales had taken place pursuant
to the deeds of trust securing the promissory notes and
guaranty agreements at issue.
On December 30, 2016, Appellants and the Owners
Association filed an answer to the first amended
complaint, denying or stating that they had insufficient
knowledge to admit or deny all substantive allegations
and raising eight affirmative defenses, including
(1) principles of “accord and satisfaction, assumption of
risk, contributory negligence, estoppel, fraud, illegality,
setoff, and/or waiver”; (2) lack of ripeness for review
due to the pending appellate action; (3) unclean hands;
(4) fraud “in materially misrepresenting that the time
for performance of the Notes would continue to be
granted as it had historically been”; (5) breach of
implied covenant of good faith and fair dealing;

App. 14
(6) failure to mitigate alleged damages; (7) breach of
fiduciary duty; and (8) equitable estoppel.2 The Bank
filed a motion to strike these eight affirmative defenses
on January 26, 2017, pursuant to Tennessee Rule of
Civil Procedure 12.06.3 Appellants subsequently filed
a response, and the Bank filed a supplement to the
motion.
On January 27, 2017, the Bank filed a notice of
voluntary dismissal without prejudice as to all
defendants except the Hills, Rainbow Ridge,
Mr. Huskey, and one other individual, Carroll
Harrellson. Upon Mr. Harrellson’s subsequent
crossclaim, counterclaim, and third-party claim, the
Bank and Mr. Harrellson reached an agreement as to
Mr. Harrellson’s real property, memorialized in an
order entered, as amended, by the trial court on
November 14, 2017, with the Bank voluntarily
dismissing its claim against Mr. Harrellson. Within
this order, the trial court, finding that Rainbow Ridge
had failed to file a responsive pleading, also granted
default judgment to Mr. Harrellson on his third-party

2

Mr. Huskey did not participate in the filing of the answer to the
amended complaint.
3

Tennessee Rule of Civil Procedure 12.06 provides:
Upon motion made by a party before responding to a
pleading or, if no responsive pleading is permitted by these
rules, upon motion made by a party within thirty (30) days
after the service of the pleading upon him or upon the
court’s own initiative at any time, the court may order
stricken from any pleading insufficient defense or any
redundant, immaterial, impertinent or scandalous matter.

App. 15
claim against Rainbow Ridge to quiet title and reform
instruments related to Mr. Harrellson’s real property.4
In the case at bar, the Bank filed a motion for
partial summary judgment against the remaining
defendants on June 1, 2017, requesting that the trial
court enter a judgment as to the liability of the Hills for
the unpaid principal balances on the Hill Notes and the
liability of the Hills and Rainbow Ridge for the unpaid
principal balance on the Rainbow Note. In addition, the
Bank requested that the trial court find Appellants
liable for corresponding accrued interest, bank charges,
late fees, and reasonable attorney’s fees.
In an order entered July 18, 2017, the trial court
granted the Bank’s motion for partial summary
judgment, finding Appellants to be liable as alleged by
the Bank. Specifically, the court found:
Defendants Wayne R. Hill and Cornelia D.
Hill, as the makers thereof, are jointly and
severally liable for the payment of all amounts
owed under Note 4, Note 9, Note 14 and Note 15,
as the same are defined in the plaintiff’s first
amended complaint, (a) due to the failure of
defendants Wayne R. Hill and Cornelia D. Hill
to pay Note 4, Note 9, Note 14 and Note 15 upon
their maturity, and (b) due to the failure of
defendants Wayne R. Hill and Cornelia D. Hill
to pay the taxes on real estate encumbered by
deeds of trust executed by defendants Wayne R.

4

Mr. Harrellson is not a party to this appeal.

App. 16
Hill and Cornelia D. Hill to secure the payment
of Note 4, Note 9, Note 14 and Note 15.
Defendant Rainbow Ridge Resort, LLC, as
the maker thereof, and defendants Wayne R.
Hill and Cornelia D. Hill, as the guarantors
thereof, are jointly and severally liable for the
payment of all amounts owed under the Rainbow
Note, as the same is defined in the [Bank’s] first
amended complaint, (a) due to the failure of
defendants Rainbow Ridge Resort, LLC, Wayne
R. Hill and Cornelia D. Hill to pay the Rainbow
Note upon its maturity, (b) due to the failure of
defendant Rainbow Ridge Resort, LLC to pay
the taxes on real estate encumbered by a deed of
trust executed by defendant Rainbow Ridge
Resort, LLC to secure the payment of the
Rainbow Note, and (c) due to the failure of
defendants Wayne R. Hill and Cornelia D. Hill
to pay the taxes on real estate encumbered by a
deed of trust executed by defendants Wayne R.
Hill and Cornelia D. Hill to secure the payment
of the Rainbow Note.
(Paragraph numbering omitted.) Also on July 18, 2017,
following a hearing, the trial court entered a separate
order granting the Bank’s motion to strike Appellants’
and the Owners Association’s eight affirmative
defenses upon finding the Bank’s motion to be “well
taken.”
The trial court conducted a bench trial regarding
the deficiency claims on November 14, 2017. As part of
its proof during trial, the Bank presented testimony
from W. Morris Kizer regarding the foreclosure sales

App. 17
related to the requested deficiency judgments, as well
as the attorney’s fees incurred by the Bank. The Bank
also presented testimony from a senior vice president
and custodian of records for the promissory notes at
issue, Mark Leslie Thomas, regarding the balances
owed on the notes and amounts received from the
foreclosure sales. On appeal, Appellants assert that the
trial court erred by denying their request to
cross-examine the Bank’s witnesses regarding the
adequacy of foreclosure sales prices and the foreclosure
process.
The trial court found that Appellants were
precluded from a line of questioning regarding defenses
they had not pled. Specifically, the court found that
Appellants had not pled inadequacy of the foreclosure
sales prices under the deficiency statute codified at
Tennessee Code Annotated § 35-5-118 (2015). The court
also found that Appellants had not pled “commercial
unreasonableness” of the foreclosure sales under a
statute cited by Appellants’ counsel that the court
found inapplicable, Tennessee Code Annotated § 47-9610 (2013). At the conclusion of the Bank’s proof,
Appellants moved for involuntary dismissal pursuant
to Tennessee Rule of Civil Procedure 41.02. The trial
court denied the motion.
At the close of all proof and argument, the trial
court announced its judgment awarding a total of
$1,180,223.77 to the Bank against the Hills and a total
of $144,848.30 to the Bank against Rainbow Ridge.
Without the trial court judge present, Appellants then
made an offer of proof concerning the alleged condition
of the subject properties, improvements existing on the

App. 18
properties at the time of the foreclosure sales, and the
manner in which the sales were conducted. Appellants
also offered proposed testimony from the Hills to the
effect that they allegedly had not received proper notice
of the May 13, 2016 foreclosure sales. Appellants’
counsel stated that if allowed to, counsel would have
questioned W. Morris Kizer and Mr. Thomas regarding
whether the properties sold at foreclosure had been
appraised prior to sale or submitted to market
valuation or studies of marketability, noting
Appellants’ counsel’s anticipation that the answers
would have been in the negative.
On December 1, 2017, the trial court entered its
“Order and Judgment,” finding Mr. Hill and Ms. Hill
“jointly and severally liable” to the Bank “in the total
amount of $1,180,223.77 on their notes and guaranty
agreements and for [the Bank’s] attorney’s fees” and
finding Rainbow Ridge “liable to the [Bank] in the
amount of $144,848.30 on its note.” Upon the Bank’s
announcement of voluntary dismissal and pursuant to
Tennessee Rule of Civil Procedure 41.01, the trial court
dismissed, without prejudice, the Bank’s action for
judicial foreclosure of the 9.27-acre tract encumbered
by Note 4 and the Bank’s action against Mr. Huskey.
On December 15, 2017, Appellants filed a motion to
vacate the order and judgment, alleging, inter alia, that
the trial court had violated their due process rights
when the court did not allow testimony concerning the
adequacy of the foreclosure sales prices and the
commercial reasonableness of the foreclosure sales.
Appellants thereby argued that the judgment was void,
pursuant to Tennessee Rule of Civil Procedure 60.02(3),

App. 19
and that relief from the judgment was justified
pursuant to Rule 60.02(5). The Bank filed a response to
the motion on January 4, 2018, and Appellants filed a
supplement to the motion the next day. In their
supplemented motion, Appellants also requested a new
trial, relying on Tennessee Rule of Civil Procedure
59.07. Following a hearing conducted on January 5,
2018, the trial court, treating the motion to vacate as a
“[m]otion for relief and for a new trial under TRCP 59,”
denied the motion in an order entered January 16,
2018. Appellants timely appealed.
II. Issues Presented
Appellants present two issues on appeal, which we
have restated slightly as follows:
1. Whether the trial court erred by denying
Appellants’ motion to vacate the December 1,
2017 order without evidence of any
commercially reasonable disposition of the
collateral as a prerequisite to seeking a
deficiency judgment.
2. Whether the trial court erred by denying
Appellants’ purportedly fundamental right to
cross-examine the Bank’s witnesses after the
Bank “opened the door” as to foreclosure
sales prices.
III. Standard of Review
We review a non-jury case de novo upon the record,
with a presumption of correctness as to the findings of
fact unless the preponderance of the evidence is
otherwise. See Tenn. R. App. P. 13(d); Bowden v. Ward,

App. 20
27 S.W.3d 913, 916 (Tenn. 2000). “In order for the
evidence to preponderate against the trial court’s
findings of fact, the evidence must support another
finding of fact with greater convincing effect.” Wood v.
Starko, 197 S.W.3d 255, 257 (Tenn. Ct. App. 2006). The
trial court’s determinations regarding witness
credibility are entitled to great weight on appeal and
shall not be disturbed absent clear and convincing
evidence to the contrary. See Morrison v. Allen, 338
S.W.3d 417, 426 (Tenn. 2011); Jones v. Garrett, 92
S.W.3d 835, 838 (Tenn. 2002).
We review questions of law, including those of
statutory construction, de novo with no presumption of
correctness. Bowden, 27 S.W.3d at 916 (citing Myint v.
Allstate Ins. Co., 970 S.W.2d 920, 924 (Tenn. 1998)); see
also In re Estate of Haskins, 224 S.W.3d 675, 678
(Tenn. Ct. App. 2006). Questions of construction
involving the Tennessee Rules of Civil Procedure are
likewise reviewed de novo with no presumption of
correctness. See Green v. Moore, 101 S.W.3d 415, 418
(Tenn. 2003). Our Supreme Court has summarized the
principles involved in statutory construction as follows:
When dealing with statutory interpretation,
well-defined precepts apply. Our primary
objective is to carry out legislative intent
without broadening or restricting the statute
beyond its intended scope. Houghton v. Aramark
Educ. Res., Inc., 90 S.W.3d 676, 678 (Tenn.
2002). In construing legislative enactments, we
presume that every word in a statute has
meaning and purpose and should be given full
effect if the obvious intention of the General

App. 21
Assembly is not violated by so doing. In re
C.K.G., 173 S.W.3d 714, 722 (Tenn. 2005). When
a statute is clear, we apply the plain meaning
without complicating the task. Eastman Chem.
Co. v. Johnson, 151 S.W.3d 503, 507 (Tenn.
2004). Our obligation is simply to enforce the
written language. Abels ex rel. Hunt v. Genie
Indus., Inc., 202 S.W.3d 99, 102 (Tenn. 2006). It
is only when a statute is ambiguous that we may
reference the broader statutory scheme, the
history of the legislation, or other sources. Parks
v. Tenn. Mun. League Risk Mgmt. Pool, 974
S.W.2d 677, 679 (Tenn. 1998). Further, the
language of a statute cannot be considered in a
vacuum, but “should be construed, if practicable,
so that its component parts are consistent and
reasonable.” Marsh v. Henderson, 221 Tenn. 42,
424 S.W.2d 193, 196 (1968). Any interpretation
of the statute that “would render one section of
the act repugnant to another” should be avoided.
Tenn. Elec. Power Co. v. City of Chattanooga,
172 Tenn. 505, 114 S.W.2d 441, 444 (1937). We
also must presume that the General Assembly
was aware of any prior enactments at the time
the legislation passed. Owens v. State, 908
S.W.2d 923, 926 (Tenn. 1995).
In re Estate of Tanner, 295 S.W.3d 610, 613-14 (Tenn.
2009).
As to evidentiary questions, “admissibility or
exclusion of evidence rests within the sound discretion
of the trial court which should be reversed only for
abuse of that discretion.” Austin v. City of Memphis,

App. 22
684 S.W.2d 624, 634 (Tenn. Ct. App. 1984), perm. app.
denied (Tenn. Dec. 31, 1984); see also In re Estate of
Greenamyre, 219 S.W.3d 877, 886 (Tenn. Ct. App. 2005)
(“[A] trial court will be found to have ‘abused its
discretion’ only when it applies an incorrect legal
standard, reaches a decision that is illogical, bases its
decision on a clearly erroneous assessment of the
evidence, or employs reasoning that causes an injustice
to the complaining party.”) (internal citations omitted).
With respect to a motion to alter or amend, this
Court has previously explained that “[w]e review a trial
court’s denial of a Tenn. R. Civ. P. 59.04 motion to alter
or amend a judgment for abuse of discretion.” Robinson
v. Currey, 153 S.W.3d 32, 38 (Tenn. Ct. App. 2004),
perm. app. denied (Tenn. Dec. 6, 2004) (quoting
Chambliss v. Stohler, 124 S.W.3d 116, 120 (Tenn. Ct.
App. 2003)). Likewise, “[i]n general, we review a trial
court’s ruling on a request for relief from a final
judgment under Rule 60.02 of the Tennessee Rules of
Civil Procedure . . . pursuant to the abuse of discretion
standard.” Turner v. Turner, 473 S.W.3d 257, 268
(Tenn. 2015).
IV. Tennessee Code Annotated § 35-5-118
Appellants contend that the trial court erred by
denying their motion to vacate the December 1, 2017
order and deficiency judgment because the Bank “failed
to satisfy its burden of proof in order to be entitled to a
deficiency judgment.” Specifically, Appellants argue
that the Bank failed to prove that it conducted a
“commercially reasonable” foreclosure sale of the real
property at issue because it allegedly did not “obtain an
independent appraisal of the properties” and did not

App. 23
“provide notice of disposition of the collateral to
Appellants.” Acknowledging that they failed to raise in
their pleadings the defense of inadequacy of the
foreclosure sales prices pursuant to Tennessee Code
Annotated § 35-5-118, Appellants assert that the trial
court “was bound to apply section 35-5-118 regardless
of whether Appellants raised a defense based on this
Statute.” The Bank contends that the trial court
properly found that by failing to raise an affirmative
defense of inadequacy of the foreclosure sales prices in
their pleadings, Appellants had waived the defense at
trial. Upon thorough review of the record and
applicable authorities, we determine that the trial
court properly applied Tennessee Code Annotated
§ 35-5-118 and in so doing, did not err by finding that
Appellants had waived the defense of inadequacy of the
foreclosure sales prices.
It is well settled in Tennessee that “the holder of a
note has the right to pursue foreclosure of the
corresponding security instrument.” GreenBank v.
Sterling Ventures, LLC, No. M2012-01312-COA-R3-CV,
2012 WL 6115015, at *5 (Tenn. Ct. App. Dec. 7, 2012).
As this Court has explained:
[A] mortgagee who bids in the full amount of the
debt at the foreclosure sale accepts the property
itself in full payment of the underlying debt,
while a mortgagee who bids in less than the full
amount of the debt retains its status as a
creditor with regard to the deficiency.
First Inv. Co. v. Allstate Ins. Co., 917 S.W.2d 229, 231
(Tenn. Ct. App. 1994), perm. app. denied (Tenn. Oct. 2,
1995); see also GreenBank, 2012 WL 6115015, at *5.

App. 24
Enacted by the General Assembly in 2010,
Tennessee Code Annotated § 35-5-118 provides in
pertinent part:
(a)

In an action brought by a creditor to
recover a balance still owing on an
indebtedness after a trustee’s or
foreclosure sale of real property secured
by a deed of trust or mortgage, the
creditor shall be entitled to a deficiency
judgment in an amount sufficient to
satisfy fully the indebtedness.

(b)

In all such actions, absent a showing of
fraud, collusion, misconduct, or
irregularity in the sale process, the
deficiency judgment shall be for the total
amount of indebtedness prior to the sale
plus the costs of the foreclosure and sale,
less the fair market value of the property
at the time of the sale. The creditor shall
be entitled to a rebuttable prima facie
presumption that the sale price of the
property is equal to the fair market value
of the property at the time of the sale.

(c)

To overcome the presumption set forth in
subsection (b), the debtor must prove by a
preponderance of the evidence that the
property sold for an amount materially
less than the fair market value of
property at the time of the foreclosure
sale. If the debtor overcomes the
presumption, the deficiency shall be the

App. 25
total amount of the indebtedness prior to
the sale plus the costs of the foreclosure
and sale, less the fair market value of the
property at the time of the sale as
determined by the court.
Concerning the effect of the 2010 enactment of
Tennessee Code Annotated § 35-5-118, this Court has
explained:
The Tennessee General Assembly enacted
Tennessee Code Annotated § 35-5-118, effective
September 1, 2010, modifying what had been the
debtor’s standard for rebutting the presumption
from “grossly inadequate” to “materially less” in
comparison to the fair market value. See
GreenBank, 2012 WL 6115015 at *6 (citing 2010
Pub. Acts, ch. 1001 § 2); see also Duke v. Daniels,
660 S.W.2d 793, 794-95 (Tenn. Ct. App. 1983)
(explaining that under the standard in effect
prior to 2010, “[w]here such [foreclosure] sale is
properly held, the sale price is conclusively
presumed to be the value of the property sold;
unless, the sale price is so grossly inadequate to
shock the conscience of the Court.”).
Eastman Credit Union v. Bennett,
No. E2015-01339-COA-R3-CV, 2016 WL 1276275, at *5
(Tenn. Ct. App. Mar. 31, 2016).
Regarding application of Tennessee Code Annotated
§ 35-5-118, this Court has explained:
This statute, which applies to all trustee or
foreclosure sales of real property secured by a
deed of trust for which the first foreclosure

App. 26
publication is given on or after September 1,
2010, provides that, absent fraud, collusion,
misconduct, or irregularity in the foreclosure
sale, “the deficiency judgment shall be for the
total amount of indebtedness prior to the sale
plus the costs of the foreclosure and sale, less
the fair market value of the property at the time
of the sale.” Tenn. Code Ann. § 35-5-118(b). In
such cases, “[t]he creditor shall be entitled to a
rebuttable prima facie presumption that the sale
price of the property is equal to the fair market
value of the property at the time of the sale.” Id.
If a defendant raises inadequacy of the
foreclosure price as a defense to the deficiency
claim, the defendant “must prove by a
preponderance of the evidence that the property
sold for an amount materially less than the fair
market value of property at the time of the
foreclosure sale.” Tenn. Code Ann. § 35-5-118(c);
see also Lost Mountain Dev. Co. v. King,
No. M2004-02663-COA-R3-CV, 2006 WL
3740791, at *8 (Tenn. Ct. App. Dec. 19, 2006)
(“[T]he issue in deficiency actions is the fair
market value of the property at the time it was
sold.”).
Commerce Union Bank, Brentwood, Tenn. v. Bush, 512
S.W.3d 217, 232-33 (Tenn. Ct. App. 2016), perm. app.
denied (Tenn. Nov. 16, 2016) (emphasis added).
In the case at bar, Appellants have not expressly
alleged fraud, collusion, misconduct, or irregularity in
the foreclosure sale process pursuant to Tennessee
Code Annotated § 35-5-118(b). Appellants do not

App. 27
dispute that pursuant to § 35-5-118(b), the Bank is
“entitled to a rebuttable prima facie presumption that
the sale price[s] of the propert[ies] [are] equal to the
fair market value of the propert[ies] at the time of the
sale.” Instead, Appellants assert that they were denied
the opportunity to overcome the statutory presumption
when the trial court sustained the Bank’s objection at
trial to questions concerning whether the properties at
issue sold for an amount materially less than their fair
market value at the time of the foreclosure sales. See
Tenn. Code Ann. § 35-5-118(c).
In its final order, the trial court explained its
decision to deny Appellants’ request to cross-examine
witnesses and introduce proof regarding the adequacy
of the foreclosure sales prices as follows:
[Appellants] sought to cross examine the
[Bank’s] witnesses concerning the adequacy of
the foreclosure sales price and sought to
introduce other evidence concerning the
adequacy of the foreclosure sales price, citing
T.C.A. § 47-9-610 et seq. and T.C.A. § 35-5-118
as the basis therefor. The Court sustained the
[Bank’s] objections to [Appellants’] cross
examination of the [Bank’s] witnesses on such
issue and [Appellants’] introduction of such
evidence on the basis that in their answer to the
[Bank’s] First Amended Complaint, [Appellants]
had not pled or asserted the inadequacy of the
foreclosure sales price and had not pled or
asserted T.C.A. § 47-9-610 et seq. and T.C.A.
§ 35-5-118, or otherwise placed those matters at
issue, and on the further basis that T.C.A.

App. 28
§ 47-9-610 et seq. has no application to the facts
of the case. The Court directed that an offer of
proof could be made by [Appellants’] counsel
after the Court ruled.
The trial court thereby found that the defense of
inadequacy of the foreclosure sales prices was an
affirmative defense that Appellants had waived by
failing to plead the defense prior to trial. Under the
procedural posture and facts of this case, we agree.
Regarding affirmative defenses, Tennessee Rule of
Civil Procedure 8.03 provides:
In pleading to a preceding pleading, a party
shall set forth affirmatively facts in short and
plain terms relied upon to constitute accord and
satisfaction, arbitration and award, express
assumption of risk, comparative fault (including
the identity or description of any other alleged
tortfeasors), discharge in bankruptcy, duress,
estoppel, failure of consideration, fraud,
illegality, laches, license, payment, release, res
judicata, statute of frauds, statute of limitations,
statute of repose, waiver, workers’ compensation
immunity, and any other matter constituting an
affirmative defense. When a party has
mistakenly designated a defense as a
counterclaim or a counterclaim as a defense, the
court, if justice so requires, shall treat the
pleading as if there had been a proper
designation.
(Emphasis added.) “Failure to ple[a]d an affirmative
defense generally results in a waiver of the defense.”

App. 29
ADT Sec. Servs., Inc. v. Johnson, 329 S.W.3d 769, 778
(Tenn. Ct. App. 2009), perm. app. denied (Tenn.
June 17, 2010).
Tennessee Code Annotated § 35-5-118 does not
expressly set forth inadequacy of the foreclosure sales
price as an affirmative defense. However, we determine
it to be a “matter constituting an affirmative defense,”
see Tenn. R. Civ. P. 8.03, according to the “most
commonly understood definition” of an affirmative
defense in a pleading of “[a] matter asserted by
defendant which, assuming the complaint to be true,
constitutes a defense to it,” see Hannan v. Alltel Publ’g
Co., 270 S.W.3d 1, 6 (Tenn. 2008), overruled on other
grounds by Rye v. Women’s Care Ctr. of Memphis,
MPLLC, 477 S.W.3d 235 (Tenn. 2015) (quoting BLACK’S
LAW DICTIONARY 60 (6th ed. 1990)). As our Supreme
Court further noted in Hannan, “an affirmative defense
is ‘a traditional way for the defendant to defeat the
plaintiff’s claim by carrying its own burden of proof.’”
Hannan, 270 S.W.3d at 7 n.3 (quoting Judy M. Cornett,
The Legacy of Byrd v. Hall: Gossiping about Summary
Judgment in Tennessee, 69 Tenn. L Rev. 175, 189-90,
208 (2001)).
Pursuant to Tennessee Code Annotated
§ 35-5-118(c), the defendant debtor must carry his or
her own burden of proof by a preponderance of the
evidence to demonstrate that “the property sold for an
amount materially less than the fair market value of
property at the time of the foreclosure sale.” Although
meeting this burden does not negate the plaintiff’s
deficiency claim, it has the potential of lowering
significantly, or even eliminating entirely, the amount

App. 30
of the deficiency judgment awarded by rendering the
fair market value of the property to be that
“determined by the court” rather than an amount equal
to the foreclosure sales price. See Tenn. Code Ann.
§ 35-5-118(c).
We note that prior to the 2010 enactment of
Tennessee Code Annotated § 35-5-118, this Court
likened the “gross inadequacy” standard then in effect
to overcome the presumption that the foreclosure price
equaled fair market value to an allegation of fraud
committed during the foreclosure proceedings. Duke v.
Daniels, 660 S.W.2d 793, 794-95 (Tenn. Ct. App. 1983),
perm. app. denied (Tenn. Nov. 28, 1983) (“Gross
inadequacy is merely a method by which one attempts
to prove fraud with the aid of a presumption.”). The
Duke Court determined that such an allegation
constituted an affirmative defense that must be pled.
Id. The question at hand in this case, which is a matter
of first impression in interpreting Tennessee Code
Annotated § 35-5-118, is whether a debtor’s allegation
of an inadequate foreclosure sales price under the
debtor’s statutory standard of “materially less” also
constitutes an affirmative defense.
Concerning the “materially less” standard, this
Court explained in Eastman Credit Union in pertinent
part:
Tennessee Code Annotated § 35-5-118 does
not provide a definition of the “materially less”
standard. See In re Estate of Tanner, 295 S.W.3d
at 614. (“It is only when a statute is ambiguous
that we may reference the broader statutory
scheme, the history of the legislation, or other

App. 31
sources.”). This Court has previously examined
the legislative history surrounding the
enactment of Tennessee Code Annotated
§ 35-5-118. See GreenBank, 2012 WL 6115015 at
*6-9 (citing 2010 Pub. Acts, ch. 1001 § 2). This
Court summarized in pertinent part:
It is clear from the foregoing discussion
that the Legislative intent in adopting the
“materially less” standard was not to
lessen the burden on the debtor so much
as to negate the presumption that the
sale price represents the fair market
value. Rather, the term “materially less”
still represents “a pretty substantial
difference.” As [House] Representative
[Vance] Dennis further explains: “It’s a
very difficult burden for the debtor to
overcome. . . . You have to show a “strong”
difference, a “material” difference.”
See GreenBank, 2012 WL 6115015 at *9.
In interpreting the “materially less”
standard, this Court “has refrained from
establishing a ‘bright-line percentage, above or
below which the statutory presumption is
rebutted.’” FirstBank v. Horizon Capital
Partners, LLC, No. E2013-00686-COA-R3-CV,
2014 WL 407908 at *3 (Tenn. Ct. App. Feb. 3,
2014) (quoting GreenBank, 2012 WL 6115015 at
*10-11)). “Instead, this court has opted to
consider the percentage difference along with
the condition of the property and any other
factors that may provide information concerning

App. 32
the marketability of the property and the
surrounding area.” FirstBank, 2014 WL 407908
at *3.
Eastman Credit Union, 2016 WL 1276275, at *9-10.
Appellants in this case have not cited and our
research has found no Tennessee appellate decisions
applying Tennessee Code Annotated § 35-5-118 in
which the defense of inadequacy of the foreclosure sales
price was considered without the defendant debtor
having first pled the defense or the appellate court’s
having determined that the defense was tried by
implied consent. See, e.g., Commerce Union Bank, 512
S.W.3d at 221 (defendants raised inadequacy of the
foreclosure sales price in their answer to the
complaint); Commercial Bank, Inc. v. Lacy, 371 S.W.3d
121, 123 (Tenn. Ct. App. 2012), perm. app. denied
(Tenn. June 20, 2012) (defendant raised inadequacy of
the foreclosure sales price as a “defense[] to liability” in
his response to the plaintiff’s summary judgment
motion); Eastman Credit Union, 2016 WL 1276275, at
*1 (“The defendant debtor asserted as an affirmative
defense [in his answer to the complaint] that the lender
had purchased the property during a foreclosure sale
for a sum materially less than the fair market value.”);
Cutshaw v. Hensley, No. E2014-01561-COA-R3-CV,
2015 WL 4557490, at *3 (Tenn. Ct. App. July 29, 2015)
(determining that inadequacy of the foreclosure sales
price had been tried by implied consent); Capital Bank
v. Brock, No. E2013-01140-COA-R3-CV, 2014 WL
2993844, at *2 (Tenn. Ct. App. June 30, 2014)
(defendants raised as “an affirmative defense” in their
answer to the amended complaint that the plaintiff

App. 33
bank had “sold the Property . . . at foreclosure for an
amount which it knew was less than its market value
. . . .”); Firstbank v. Horizon Capital Partners, LLC,
No. E2013-00686-COA-R3-CV, 2014 WL 407908, at *1
(Tenn. Ct. App. Feb. 3, 2014) (defendant raised
inadequacy of the foreclosure sales price in an objection
to the plaintiff’s summary judgment motion).
Considering this Court’s interpretation of a debtor’s
allegation of an inadequate foreclosure sales price
under the previous standard as an affirmative defense,
see Duke, 660 S.W.2d at 794-95; the legislative history
surrounding the 2010 enactment of Tennessee Code
Annotated § 35-5-118, see GreenBank, 2012 WL
6115015, at *9; the defendant’s burden of proof to
demonstrate inadequacy of the foreclosure sales price,
see Hannan, 270 S.W.3d at 7 n.3; and consistent
treatment in appellate analysis of a debtor’s allegation
concerning an inadequate foreclosure sales price as a
defense to be raised by the debtor, see, e.g., Commerce
Union Bank, 512 S.W.3d at 232, we hold that
inadequacy of the foreclosure sales price under
Tennessee Code Annotated § 35-5-118 is an affirmative
defense that either must be properly pled prior to trial
or tried by implied consent.
Appellants argue that the Bank “opened the door”
to testimony regarding the adequacy of the foreclosure
sale prices when W. Morris Kizer testified during trial
that he had personally seen the cabin on the property
that was encumbered by Note 9. As Appellants
acknowledged during trial and the Bank has asserted
on appeal, “opening the door” is an evidentiary
principle usually applied in the context of criminal

App. 34
proceedings. See, e.g., State v. Kendricks, 947 S.W.2d
875, 883 (Tenn. Crim. App. 1996), perm. app. denied
(Tenn. May 5, 1997) (“Irrespective of admissibility
under Rule 609 [of Tennessee Rules of Evidence], a
conviction may be used to contradict a witness who
‘opens the door’ and testifies on direct examination that
he or she has never been convicted of a crime, or to
counter some other facet of direct testimony.’” (quoting
Cohen, Sheppeard & Paine, Tennessee Law of Evidence
§ 609.1 (3d ed. 1995))). We find Appellants’ reliance on
this principle as a means of introducing evidence that
the trial court found irrelevant to the issues pled in a
civil matter to be unavailing. See Tenn. R. Evid. 401
(“‘Relevant evidence’ means evidence having any
tendency to make the existence of any fact that is of
consequence to the determination of the action more
probable or less probable than it would be without the
evidence.”).
However, Appellants’ argument in this vein may be
interpreted as an assertion that the defense of
inadequacy of the foreclosure sales prices was tried by
implied consent. Tennessee Rule of Civil Procedure
15.02 creates an exception to the general rule that
“[j]udgments awarded beyond the scope of the
pleadings are void.” See Randolph v. Meduri, 416
S.W.3d 378, 384 (Tenn. Ct. App. 2011). Rule 15.02
provides in pertinent part:
Amendments to Conform to the Evidence.—
When issues not raised by the pleadings are
tried by express or implied consent of the
parties, they shall be treated in all respects as if
they had been raised in the pleadings. Such

App. 35
amendment of the pleadings as may be
necessary to cause them to conform to the
evidence and to raise these issues may be made
upon motion of any party at any time, even after
judgment; but failure so to amend does not affect
the result of the trial of these issues.
In Cutshaw, which involved a deficiency action
under Tennessee Code Annotated § 35-5-118, the
plaintiff lenders argued that the defendant debtors
“should be precluded from arguing that the foreclosure
sale price was materially less than fair market value,
because the [debtors] did not expressly make such an
allegation in their answer or other pleading.” Cutshaw,
2015 WL 4557490, at *3. Upon review, this Court
determined that “[t]he record reflect[ed] that both
parties, and the trial court, understood that fair
market value was at issue under the statute, and thus
the issue was fairly tried by implied consent.” Id. In
contrast, upon careful review of the record in the
instant action, we determine that the parties did not
try the defense of inadequacy of the foreclosure sales
prices by implied consent and that, based on the
parties’ pleadings, the trial court did not anticipate the
adequacy of the foreclosure sales prices to be at issue
during trial.
During Appellants’ cross-examination of W. Morris
Kizer, the following exchange occurred in relevant part:

App. 36
Appellants’ Counsel:5 I would like you to go back to
Exhibit 1, which was the
summary of May 13th, 2016
foreclosure sales. I want to take
these one at a time and ask you
a series of questions about
them, starting with what you’ve
got reference[d] as Hill note
nine. You said that was
improved by a cabin?
W. Morris Kizer:

Well, the property encumbered
to secure Hill note nine was
improved by a cabin.

Appellants’ Counsel:

All right. What was the
condition of the cabin as of
May 13th of 2016?

W. Morris Kizer:

I think the last time I saw the
cabin prior to the foreclosure
sale would have been several
months before that.

Appellants’ Counsel:

And what was the condition of
it at that time?

W. Morris Kizer:

I did not go in the interior. The
exterior appeared fine. As a
matter of fact, there were rental
guests there, it appeared,

5

Appellants’ counsel at trial was William Jeff Barnes, pro hoc vice,
of Florida and Andrew Farmer of Sevierville. Mr. Barnes
conducted this cross-examination.

App. 37
people moving their bags in and
out.
Appellants’ Counsel:

So it was furnished?

W. Morris Kizer:

There were people in there. I
assume rental people.

Appellants’ Counsel:

Did you see those people in
there?

W. Morris Kizer:

I saw them moving in and out
of the building.

Appellants’ Counsel:

All right. And you said – I’m
sorry, I didn’t mean to interrupt
you. You said this visual
inspection was done a few
months before the foreclosure
sales?

W. Morris Kizer:

Yes, sir, I would say three
months before.

Appellants’ Counsel:

All right. So basically March,
springtime?

W. Morris Kizer:

Early spring, I would say.

Appellants’ Counsel:

All right. Was anybody with
you when you did this visual
inspection?

W. Morris Kizer:

No.

Appellants’ Counsel:

Did you actually go into the
cabin?

App. 38
W. Morris Kizer:

No, sir.

Appellants’ Counsel:

All right. Do you know if there
was any kind of appraisal or
market valuation done of that
cabin at any time by [the Bank]
or your office?

The Bank’s Counsel:6 Your Honor, I object to this line
of questioning insofar as the
defendants have not properly
raised and pled the affirmative
defense predicated on TCA
35-5-118 or for that matter the
one that opposing counsel
referred to at the beginning of
this proceeding I found at TCA
47-9-610. So the objection
would be based on relevance.
Appellants’ Counsel:

6

Well, Judge, we’re kind of
putting the cart before the
horse with that objection. We
don’t know until today what
Mr. [W. Morris] Kizer was
going to testify to, and since he
has testified at length with
regard to what these properties
sold for, and they’ve raised the
issue of what these properties
sold for, I think on
cross-examination I should be

Counsel acting on behalf of the Bank was John M. Kizer.

App. 39
allowed to
questions.

ask

him

some

Trial Court:

Counsel, if you’re going to raise
an issue of insufficiency of the
foreclosure sale of personal
property under Article 9 of the
Uniform Commercial Code for
real property under Title 35,
you’ve got to plead the statute.
You’ve got to put the other side
on notice that you’ve relied
upon the statutes. The Rules of
Civil Procedure require you to
do that.

Appellants’ Counsel:

But again, Judge, what we’re
talking about here is we don’t –
I didn’t know before today –
and I don’t like to not plead
things in good faith. I don’t like
to plead a statutory defense
that I don’t have a good faith
basis for. I’ve – there were no
depositions taken in this case.
Mr. [W. Morris] Kizer has
testified today for the first time,
for over an hour, about these
properties and he testified that
he prepared the trust deeds. He
has just testified he did an
inspection. They raised this
issue. I think I’m entitled to
cross-examine him on that.

App. 40
If they want to come back later
in some kind of motion or memo
or whatever and say that, you
know, that wouldn’t apply
because it wasn’t raised as a
defense, that’s fine. But to cut
off cross-examination of issues
that they’ve raised in their
direct testimony I think would
be a denial of due process.
The Bank’s Counsel:

Your Honor, respectfully –

Trial Court:

The objection is sustained. If
you’re going to take the position
that a foreclosure sale or a sale
involving the disposal of
collateral under Article 9 was
an insufficient sale, you’ve got
to raise that, you’ve got to plead
it.
You can’t come in on the day of
trial – I understand counsel’s
point that, look, you don’t
necessarily know exactly
everything that’s going to come
up, or you may not know
everything that’s going to come
up in a trial, but the matter of
t h e suffi c i e n c y o f t h e
foreclosure sale is something
simply that has to be pled. It
has to be pled in order to be
relied upon. It was not pled

App. 41
here, and so the objection is
sustained.
Appellants’ Counsel:

Then I would make a ore tenus
motion to amend our answer to
add those two statutory
defenses, because, again,
Mr. [W. Morris] Kizer has just
testified, he has just raised
these issues. He’s just put them
into evidence.

Trial Court:

Counsel, what do you have to
say?

The Bank’s Counsel:

Well, your Honor, I believe that
such an amendment would be
futile and would only further
prolong or delay these
proceedings that have been set
for trial for this date for a while
now, and so I would oppose
such a –

Trial Court:

The motion is overruled. This
lawsuit was filed in March of
2016.

Appellants’ Counsel:

Right.

Trial Court:

It has been pending since
March of 2016. The fact that
depositions were not taken,
discovery was not taken, that’s
a matter of – they could have
been taken. Had any party to

App. 42
the proceedings wanted to take
them, they certainly could have
been taken. There was
extensive written discovery.
Appellants’ Counsel:

Well, your Honor, with all due
respect, there was extensive
written discovery about
whether or not my clients
signed the notes and the deed of
trust and whether the
foreclosures happened, that’s
where the requests for
admissions were all grounded
upon. There was nothing in
those admissions whatsoever
with regard to the issue of
whether or not there was the
proper disposition of this
collateral, whether it was under
Chapter 35 or under
Chapter 47.

Trial Court:

Motion to amend is overruled.

***
Appellants’ Counsel:

Your Honor, in light of what
you just said, it’s our position
that this was not an
unanticipated series of issues.
[The Bank] disposed of the
collateral. They should be
familiar with the law in that,
whether under Chapter 35 or

App. 43
Chapter 47, so they can’t
certainly claim surprise. So
what I would like to do is I’d
like to make an offer of proof for
the record as to what I would
have asked had I been allowed
to ask it.
Trial Court:

You can do that, you certainly
have that right, and you can do
that, but that will come at the
end of the day, not during the
trial.

Following W. Morris Kizer’s testimony, Mr. Thomas
testified, acknowledging during cross-examination that
he was offering no testimony regarding appraisals or
other valuations of the properties at issue.
Appellants essentially contend that they should
have been allowed to pursue the defense of inadequacy
of the foreclosure sales prices because the Bank should
have been prepared for any defense allowed under
Tennessee Code Annotated § 38-5-118. We disagree.
Even assuming, arguendo, that the Bank knew or
should reasonably have known that the adequacy of the
foreclosure sales could become an issue at trial, we note
that the Bank vehemently objected to this line of
questioning during trial and was at risk of having its
case prejudiced if the trial court had allowed the
defense without Appellants having given notice to the
Bank prior to trial of their intent to assert the defense.
See Hiller v. Hailey, 915 S.W.2d 800, 804 (Tenn. Ct.
App. 1995), perm. app. denied (Tenn. Dec. 18, 1995)
(“Generally speaking, trial by implied consent will be

App. 44
found where the party opposed to the amendment knew
or should reasonably have known of the evidence
relating to the new issue, did not object to this
evidence, and was not prejudiced thereby.” (quoting
Zack Cheek Builders, Inc. v. McLeod, 597 S.W.2d 888,
890-91 (Tenn. 1980) (emphasis added))). We note also
that the evidence presented by the Bank regarding the
foreclosure sales prices was relevant to an established
issue, that of demonstrating the sale price of each
property for purposes of calculating the total deficiency
judgment. See Christmas Lumber Co., Inc. v.. Valiga,
99 S.W.3d 585, 593 (Tenn. Ct. App. 2002), perm. app.
denied (Tenn. Feb 18, 2003) (“Trial by implied consent
is not shown by the presentation of evidence that is
relevant to an unestablished issue when that evidence
is also relevant to the established issue.” (quoting
McLemore v. Powell, 968 S.W.2d 799, 803 (Tenn. Ct.
App. 1997)).
Inasmuch as inadequacy of the foreclosure sales
prices was not pled by Appellants or tried by implied
consent in this action, we determine that the trial court
did not abuse its discretion by finding the defense to be
waived.7 Therefore, we further determine that the trial
court did not err by denying Appellants’ motion to
vacate the December 1, 2017 order without hearing

7

Appellants have not raised an issue on appeal regarding the trial
court’s denial of their oral motion, made during trial, to amend
their answer to add the statutory defenses they attempted to raise
at trial. We will therefore not address this ruling on appeal. See
Tenn. R. App. P. 13(b) (“Review generally will extend only to those
issues presented for review.”).

App. 45
further evidence regarding the adequacy of the
foreclosure sales prices.
V. Inapplicability of Tennessee Code Annotated
§ 47-9-610
Within their issues presented and argument on
appeal that the foreclosure sale was “commercially
unreasonable,” Appellants consistently refer to the
“collateral” foreclosed upon, exchanging this term for
“properties” early in their argument and apparently
referring to the cabins as collateral pursuant to their
interpretation of Tennessee Code Annotated § 47-9-610.
At trial, Appellants’ counsel during opening statements
relied in part on Tennessee Code Annotated
§ 47-9-610(a)-(b), arguing that this statute applied
because the properties at issue were “commercial” and
“investment” properties such that the “resort cabins”
should be treated as collateral that was required by
statute to be disposed of in a commercially reasonable
manner after Appellants had defaulted on the related
promissory notes.
Upon thorough review, we agree with the trial
court’s determination, made when Appellants’ counsel
first cited this statute during trial, that this statutory
chapter involves secured transactions and does not
apply to real property and the improvements, such as
the resort cabins at issue here, conveyed as part of the
transfer of real property. See Tenn. Code
Ann. § 47-9-109(d)(11) (2013) (providing that barring
exceptions not applicable here, “[t]his chapter does not
apply to . . . the creation or transfer of an interest in or
lien on real property . . . .”); Solomon v. First Am. Nat’l
Bank of Nashville, 774 S.W.2d 935, 942 (Tenn. Ct. App.

App. 46
1989), perm. app. denied (Tenn. June 26, 1989) (“As to
the sale of realty, the Uniform Commercial Code
requirements of a commercially reasonable sale have
no application.”).
In support of their position that the Uniform
Commercial Code requirements apply, Appellants rely
heavily on this Court’s decision in R & J of Tenn., Inc.
v. Blankenship-Melton Real Estate, Inc., 166 S.W.3d
195 (Tenn. Ct. App. 2004), perm. app. denied (Tenn.
May 9, 2005), abrogated on other grounds by Auto
Credit of Nashville v. Wimmer, 231 S.W.3d 896 (Tenn.
2007). However, the loan transaction at issue in R & J,
which was “governed by Tennessee’s version of
Article 9 of the Uniform Commercial Code,” involved
the sale at foreclosure of collateral consisting of a boat,
a tractor, a truck, and a mobile home. R & J, 166
S.W.3d at 198-200. At no point did the R & J Court
consider real property, or the improvements
constructed thereon, to be “collateral” under
Tennessee’s version of Article 9 of the Uniform
Commercial Code. Appellants’ reliance on R & J is
misplaced.
Inasmuch as the Uniform Commercial Code
requirements contained within Chapter 9 (“Secured
Transactions”) of Title 47 (“Commercial Instruments
and Transactions”) of Tennessee Code Annotated do
not apply to transfers of real property, Appellants’
reliance on this statutory section is unavailing. See
Tenn. Code Ann. § 47-9-109(d)(11). Additionally, as the
trial court noted, Appellants had not, prior to trial,
raised a defense pursuant to Tennessee Code
Annotated § 47-9-610 in their pleadings. See Tenn. R.

App. 47
Civ. P. 8.05(1) (“Every pleading stating a claim or
defense relying upon the violation of a statute shall, in
a separate count or paragraph, either specifically refer
to the statute or state all of the facts necessary to
constitute such breach so that the other party can be
duly apprised of the statutory violation charged.”).8
Appellants are not entitled to any relief under
Tennessee Code Annotated § 47-9-610 or its
neighboring statutory sections.
VI. Appellants’ Remaining Issue
As explained above, we have determined that the
trial court did not abuse its discretion by finding that
Appellants had waived what we hold to be the
affirmative defense of inadequacy of the foreclosure

8

We note that the Bank also argues on appeal that when
Appellants failed to plead their affirmative defense pursuant to
Tennessee Code Annotated § 35-5-118, they failed to comply with
Tennessee Rule of Civil Procedure 8.05(1) by failing to allege a
violation of § 35-5-118. We do not find this argument persuasive.
We have held that Appellants were required to plead the
affirmative defense of inadequacy of the foreclosure sales prices
pursuant to Tennessee Code Annotated § 35-5-118 and Tennessee
Rule of Civil Procedure 8.03. However, we do not determine that
such an affirmative defense constitutes an allegation that the
Bank “violated” any requirement set forth in the deficiency statute.
See, e.g., City of Memphis v. Shelby Cty., 469 S.W.3d 531, 559 n.19
(Tenn. Ct. App. 2015), perm. app. denied (Tenn. Aug. 14, 2015)
(finding no violation of Rule 8.05 when the plaintiff “sought an
interpretation and declaration of the [statute at issue] as it related
to the parties’ future rights and obligations” rather than alleging
a “violation” of the statute). In contrast, Appellants did allege a
violation of requirements set forth in Tennessee Code Annotated
§ 47-9-610 without having properly indicated their reliance on the
statute pursuant to Rule 8.05(1).

App. 48
sales prices pursuant to Tennessee Code Annotated
§ 35-5-118. We have also determined that the trial
court did not err, by finding, as a matter of law, that
Tennessee Code Annotated § 47-9-610 was inapplicable
to this matter. We therefore conclude that Appellants’
remaining issue concerning the trial court’s denial of
their request to further cross-examine the Bank’s
witnesses in an effort to establish their unpled
affirmative defense is pretermitted as moot.
VII. Conclusion
For the foregoing reasons, we affirm the trial court’s
judgment in its entirety. This case is remanded to the
trial court, pursuant to applicable law, for enforcement
of the judgment and collection of costs assessed below.
The costs on appeal are assessed against the
appellants, Wayne R. Hill, Cornelia D. Hill, and
Rainbow Ridge Resort, LLC.
_________________________________
THOMAS R. FRIERSON, II, JUDGE

App. 49

APPENDIX D
IN THE CHANCERY COURT FOR
SEVIER COUNTY, TENNESSEE
No. 16-3-118
[Filed January 16, 2018]
________________________________
BRANCH BANKING AND
)
TRUST COMPANY
)
)
Plaintiff,
)
)
v.
)
)
WAYNE R. HILL, CORNELIA D. )
HILL, and RAINBOW RIDGE
)
RESORT, LLC,
)
)
Defendants.
)
________________________________ )
NOTICE OF ENTRY REQUESTED
ORDER DENYING MOTION TO VACATE ORDER
AND JUDGMENT
This cause came on for hearing on January 5, 2018
on the Motion of the Defendants to Vacate this Court’s
Order and Judgment dated December 1, 2017.
Although filed citing TRCP 60, the Court treats the
Motion to Vacate as a Motion for relief and for a new
trial under TRCP 59, and finds that the Motion was

App. 50
timely filed. The Court heard argument from counsel
for the parties and bas reviewed the file, and denies the
Motion to Vacate.
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED that the Defendants’ Motion to Vacate,
which the Court treats as a motion for relief under
TRCP 59, be and the same and is hereby is denied.
ENTER, this 16 day of January, 2018.
/s/
CHANCELLOR
APPROVED FOR ENTRY:
/s/
W. Morris Kizer
(BPR No. 1571)
Gentry, Tipton & McLemore, P.C.
P.O. Box 1990
Knoxville, Tennessee 37901
(865) 525-5300
Attorney for Branch Banking and
Trust Company
/s/
Andrew E. Farmer
(BPR No. 26823)
Law Offices of Andrew E. Farmer
121 Court Avenue
Sevierville, Tennessee 37862
865-428-6737
Attorney for Rainbow Ridge Resort, LLC,
Wayne Hill and Cornelia Hill

App. 51
/s/
W. Jeffrey Barnes (pro hac vice)
(FL Bar No. 746479)
W. J. Barnes, P.A.
1515 North Federal Highway
Suite 300
Boca Raton, Florida 33432
561-864-1067
Attorney PHV for Rainbow Ridge Resort, LLC,
Wayne Hill and Cornelia Hill

App. 52

APPENDIX E
IN THE CHANCERY COURT FOR
SEVIER COUNTY, TENNESSEE
NO. 16-3-118
[Dated January 5, 2018]
______________________________________
BRANCH BANKING AND TRUST
)
COMPANY,
)
)
Plaintiff,
)
)
vs.
)
)
WAYNE R. HILL, CORNELIA D. HILL )
and RAINBOW RIDGE RESORT, LLC, )
)
Defendants.
)
______________________________________ )
TRANSCRIPT OF PROCEEDINGS
APPEARANCES:
FOR THE PLAINTIFF:
W. MORRIS KIZER, ESQ.
JOHN M. KIZER, ESQ.
Gentry, Tipton & McLemore, P.C.
Riverview Tower, Suite 2300
900 South Gay Street
Knoxville, Tennessee 37902

App. 53
FOR THE DEFENDANTS:
WILLIAM JEFF BARNES, ESQ.
W.J. Barnes, P.A.
1515 North Federal Highway
Suite 300
Boca Raton, Florida 33432
[p.2]
(Be it remembered, the following proceedings were
held before the Honorable T.E. Forgety, Jr., on
January 5, 2018, as follows:)
THE COURT: Counsel?
MR. BARNES: Your Honor, this is our original and
supplemented motion to vacate the Order and
Judgment dated December 1, 2017.
Just as a preliminary matter, Your Honor, I do
apologize for the late submission of the supplemented
motion; however, I received -- our motion was filed on
December 14th of last year. I received Mr. Kizer’s
response yesterday afternoon at 4:15 when I got into
Sevierville.
So I worked as hard as I could overnight to review
it and just to supplement our prior motion based upon
something -- at least one thing Mr. Kizer raised in his
motion.
And, Your Honor, there is authority for treating a
motion filed under Rule 60 as a Rule 59 motion. This is
Collins versus Collins, No. M2014-02417-COA-R3-CV,
a case from the Court of Appeals at Nashville in 2016,
where a similar situation happened.

App. 54
The husband in that case filed a motion to set aside
the final decree citing Rule 60 and
[p.3]
the Court stated that motions filed pursuant to Rule 59
are served within 30 days after judgment has been
entered and in view of the fact that that motion was
filed within that time period, what the Court decided to
do, even though the motion was filed under Rule 60,
the Court stated as follows:
We agree that the July 29th motion, having been
filed within 30 days after entry of the final decree, was
to be treated as a Rule 59 motion, not withstanding the
fact that it cited Rule 60 in support of the relief
requested, and that cites Ferguson v. Brown 291
S.W.3d 381, Court of Appeals in 2008.
So where does that tie in here? Your Honor, as you
know, you entered an Order and Judgment, which is a
Final Order, on December 1st of 2017. We filed our
motion within 30 days styled under Rule 60 but
essentially seeking the type of relief under Rule 59 for
a new trial and the reason being this:
As you know, at the trial, Mr. Kizer took the stand
right over there and testified as to various trustee
foreclosure sales as to properties which had been the
subject of underlying litigation to foreclose on those
properties.
[p.4]
During the course of that testimony, Mr. Kizer
testified as to the value obtained for those properties at

App. 55
the various foreclosure sales and he also testified that
he, himself, conducted these foreclosure sales.
Now, what happens here is that our position is
Mr. Kizer opened the door on cross-examination to the
subject matter of the sale of the properties.
And I use that term because that’s the term that’s
used in the case law that we’ve cited in our motion,
including State v. Burton, which is cited in paragraph 5
on page 2 of our motion.
Now, the position that seems to have been taken is
that because the Hills did not raise issues as to
adequacy of price, etc., obtained at the foreclosure sales
as an affirmative defense to the action, that that
somehow ipso facto precluded any cross-examination of
Mr. Kizer as to the foreclosure sales which he testified-THE COURT: Kim, it’s in these boxes. Should be.
Go ahead.
MR. BARNES: I’m sorry, Your Honor.
THE COURT: I was looking for -MR. BARNES: All right. I just didn’t
[p.5]
want to interrupt.
THE COURT: I’m multi-tasking here.
MR. BARNES: I see that. I just didn’t want to be
perceived as interrupting one of those tasks.
THE COURT: Go ahead.

App. 56
MR. BARNES: In any event, Your Honor, the
interesting constitutional issue that we see here is can
the fundamental right to cross-examination, which is a
constitutionally guaranteed fundamental right, be
precluded or abrogated or taken away in some fashion
when a witness opens a door to cross-examination on a
certain subject matter simply because that subject
matter was not raised as a defense in the underlying
action?
I have not found any case law that addresses that
issue at all on those specific facts and under these
specific circumstances.
So, what our argument essentially here is, is that
there is grounds, there are grounds for relieving the
Hills from the Final Judgment because of the taking
away of that fundamental right which implicates due
process.
And Mr. Kizer, interestingly enough in
[p.6]
his response, again, which I received yesterday
afternoon, states the following: To be found void for
purposes of 60.02, sub 3, a judgment must have been
rendered by a court lacking jurisdiction over the
subject matter or the parties, or acting in some other
manner inconsistent with the requirements of due
process. Citing Magnavox Company versus B-O-L-E-S
ampersand Hite, H-I-T-E, Construction Company, 583
S.W.2d 611 at 613 (Tennessee Court of Appeals 1979).

App. 57
So Mr. Kizer is acknowledging that our position is
something that would provide a basis to declare this
Final Judgment void.
So, there is nothing also in the case law, although
this, the preclusion of cross-examination issue and the
issues of opening door have come up in the criminal
case context in the decisional law, Mr. Kizer argues
that it’s confined solely to criminal cases. That’s not
what the case law says.
There’s nothing in the case law that says, by the
way, this whole concept of opening the door and
permitting cross-examination applies only to criminal
cases or does not apply to civil cases or chancery cases.
There’s nothing that
[p.7]
says that.
The fact that it may have come up in a decisional
law at this point only in the context of a criminal trial
does not preclude the use of that argument in a civil
case, especially since we’re talking about what the
courts have consistently referred to in Tennessee as a
fundamental right.
Now, again, Your Honor, what is going on here is
that BB&T is seeking to and has obtained a judgment
in excess of a million dollars against my clients
personally on a deficiency claim.
And what happened at the trial, as Your Honor
knows, was that there was an objection made when I
attempted to cross-examine Mr. Kizer, as I had the

App. 58
right to do, as to the subject matter of his testimony
and that subject matter was the foreclosure sales.
He opened the door. He testified that he obtained
certain prices for certain properties. He testified he
conducted the sales himself. He thus opened this door
to this subject matter area and that’s the standard
under the case law for opening the door. It’s the subject
matter.
It’s not a specific defense. It’s not a
[p.8]
specific element of anything. It’s the subject matter.
The subject matter of his direct examination, at least
in part, was the foreclosure sales, and so my intended
cross-examination was on the subject matter of those
sales since he did open the door.
Now, Mr. Kizer -- as you know, Your Honor
sustained the objection, did not allow me to crossexamine either Mr. Kizer or the other witness.
And there was an offer of proof made on the record
but outside the presence of the Court, because Your
Honor left the courtroom, went through that room. You
didn’t hear that.
Yet Mr. Kizer makes an argument in his response
that he’s reviewed the offer of proof and he thinks that
there’s nothing in there that would justify relief by this
motion.
Well, that’s -- again, we’re putting the cart before
the horse here. Your Honor specifically declined to hear
the offer of proof for various and sundry reasons that

App. 59
are on the record. You told me to put it on the record
but now Mr. Kizer says in his response in his humble
opinion -[p.9]
THE COURT: Well, you said the offer of proof, the
point there is the offer of proof you make not for the
benefit of the trial court, because the trial court has
already ruled, you make the offer of proof so that you
can show the Court of Appeals what you would have
proven if you had been allowed to do so.
So that’s why you make an offer of proof, not for the
purposes of the trial court. Because the trial court -- if
the trial court hadn’t ruled it inadmissible, you
wouldn’t need to make an offer of proof because it
would be in evidence.
MR. BARNES: And I understand that 1,000
percent. The point I’m trying to make here is that given
that, and I understand the Court’s point and
understood it at the time.
For Mr. Kizer to make an argument as to the
matters in the offer of proof and refer to the transcript
in his response to my motion is improper. I would ask
that the Court disregard that.
But, again, Your Honor, it’s our position here that,
and, again, I have not found any case law in Tennessee
or anywhere else that addresses these specific facts in
this specific situation

App. 60
[p.10]
where a witness in a civil case opens the door to a
subject matter, cross-examination is attempted on that
subject matter and it is precluded because of the lack
of assertion of a defense on that subject matter
previously.
So, this is something new to me in my 29 and three
quarter years of practice. But it’s grounded on
fundamental concepts that have been around for a long
time.
And so we would ask that the Court, pursuant to
the Collins case, although this motion was filed under
Rule 60, treat it as a Rule 59 motion in view of the time
that it was filed and the ultimate relief requested
because vacating the Final Judgment would mean a
new trial.
And the arguments that I made in this motion as to
the lack of being able to exercise my client’s
fundamental rights to cross-examination are a matter
which pertain to trial proceedings.
So, we would ask that the Court do that and ask
that the Court either, and/or vacate the Final
Judgment and order a new trial. Thank you.
THE COURT: Mr. Kizer?
MR. KIZER: Thank you, Your Honor. As an initial
matter just responding to Mr. Barnes’

App. 61
[p.11]
statements about when he received this response, I
would represent to the Court that it was handdelivered to Mr. Farmer’s office, who is co-counsel for
Mr. Barnes, around noon yesterday. And in any event,
I’m not aware of any rule of procedure or local rule that
requires a response to be tendered in any given time
prior to the date designated for hearing.
Now, this morning, Mr. Barnes filed what he
characterizes as a supplemental motion wherein he
cites Rule 59 as an additional basis for relief. This
judgment, as you know, was initially entered
December 1. The time for filing a notice of appeal
expired January 3rd, 2018.
BB&T’s position, therefore, and this is set forth in
our initial response, with regards to a Rule 60.02
motion that was filed two weeks after the entry of the
judgment was premature.
Rule 60.02 motions only apply to Final Judgments.
This Judgment was not final until the expiration of 30
days following its entry, which was January the 3rd,
2018.
The Rule 60 motion is procedurally improper and
any effort to supplement such motion with a claimed
Rule 59 motion after the expiration
[p.12]
of the 30 days following the entry of the judgment is in
my view a nullity.

App. 62
I don’t believe there’s anything in Rule 59 that
states that a Rule 59 motion filed after the expiration
of 30 days can, quote/unquote, relate back. And so for
purposes of any appeal that may be pursued by the
Defendants hereafter, our position is that they failed to
preserve their right in filing a notice of appeal.
The Rule 60 motion was of no effect because it was
premature and the Rule 59 motion is of no effect
because it was late.
Now, if you look at the merits -THE COURT: What about his contention that the
Court ought to treat the motion -- it is -- if you, if you
look, the style of his motion is Hill Defendants’ Motion
to Vacate Order and Judgment dated December 1,
2017. That’s the caption on the motion.
If you read the first sentence, Defendants Rainbow
Ridge Resort, LLC, Wayne R. Hill and wife, Cornelia
Hill, hereafter the Hills, by and through their
undersigned counsel and pursuant to T.R.C. 60.02(3)
and (5), so he does cite 60.02(3) and (5), but that
motion, that
[p.13]
motion was filed certainly within 30 days of the entry
of the judgment.
MR. KIZER: It was, Your Honor, but when it was
filed, the judgment was not final.
THE COURT: I understand that but -- I understand
that it wasn’t and I understand that Rule 60 motions,
strictly speaking, Rule 60 motions deal with final

App. 63
judgments, not judgments that have not yet become
final.
If you file a motion with respect to a judgment that
has not yet become final, technically speaking, it’s
something else. It’s a motion for a new trial. It’s a
motion to alter or amend.
It’s, it’s something else. It’s not a, technically
speaking, it’s not a Rule 60 motion. I understand that,
but he contends that the Court ought to, nevertheless,
treat it as a Rule 59 motion.
MR. KIZER: Well, importantly, if you look at, Your
Honor, Rule 59.01, as well as Tennessee Rule of
Appellate Procedure 4(b), those rules kind of hand-inhand speak to the types of motions that will, that will
extend or toll the period in which certain appellate
steps or steps
[p.14]
in the appellate process must be taken, including the
filing of a notice of appeal.
You have a Rule 50.02 motion for judgment in
accordance with the motion for a directed verdict;
under 50.02 to amend or make additional findings of
fact; under Rule 59.07 for a new trial; or under
Rule 59.04 to alter or amend the judgment.
Now -THE COURT: And it goes on and says if no other,
no other motions will extend the time for the filing of a,
will extend the time for finality of the judgment.

App. 64
MR. KIZER: That’s correct, Your Honor.
THE COURT: But now help me out. I think I’m
right about this, or at least I think I’m right about it at
one point in time.
People at times have filed motions denominated as
motions to reconsider, which animal does not exist.
Under the Tennessee version of the Rules of Civil
Procedure there is not any such thing.
But we’ve got case law, or at one time we had case
law which held that, if I’m not badly mistaken, that the
Court could consider a motion
[p.15]
denominated as a motion to reconsider, could consider
it a motion for new a trial, which -MR. KIZER: That’s correct, Your Honor. That’s my
understanding, but I think the case law speaks to you
must look to the substance of what is being sought by
the motion.
And this motion clearly to me is seeking a vacate,
the Court to vacate its order. It’s not in substance -THE COURT: And, by the way, such a motion filed
before the judgment becomes final, the Court can do -before its judgment becomes final, a Court can do
anything it wants to do. And for that matter, can do it
on its own motion, and I have done it.
For example, on my own motion, I’ve come in and
said, you know, I’m going to amend my findings. I’m
going to grant a new trial. I’ve done that a few times.

App. 65
So, within the 30-day time period, the Court’s still
got jurisdiction of the case. Can set its judgment aside,
alter, amend on its own motion whether asked to or
not.
So, I’ll tell you frankly. Honestly, I think his motion,
though it does in the first
[p.16]
sentence say that it’s a motion filed pursuant to
Rule 60, the Court will treat it as a motion for new
trial. He asked to vacate the judgment.
Okay. Well, if I do that, if I did that, if I vacated the
judgment, what would that mean? What would that
necessarily mean if I did it, which is another issue.
But if I did it, if I did that, what would that mean?
It would mean a new trial, wouldn’t it?
MR. KIZER: I’m not sure, Your Honor. I think
Rule 59.07 specifically provides for a motion for a new
trial and I don’t know the answer to that at this time.
Seems to.
THE COURT: Well, what else could it be? I mean,
if I vacate the judgment, there’s no judgment in the
case and that means that the case is yet pending. How
would it be resolved? How would it be resolved then?
MR. KIZER: Well, Your Honor, irrespective of this
procedural argument that we make, I think if you look
at the merits of Mr. Barnes’ and the Defendants’
motion, it is clear that no such relief is warranted.
Judgment, as you know, is not void in

App. 66
[p.17]
Tennessee simply because it is wrong. And very
recently in Hussey versus Woods, our Supreme Court
in the middle of December of 2017 -- this was filed
12/18/17 -- in speaking to sort of the standards that
govern Rule 60.02 (3) motions and that is to say
motions that are predicated on void judgment, stated
that a judgment is not void because it is or may have
been erroneous.
A judgment is not void because a party is
dissatisfied with the result or chose not to participate
in the proceedings. A judgment is not void because a
party claims it to be unjust.
Now -THE COURT: There’s no question -- there’s no
question about that. I mean, never has been any
question about that. If the Court has jurisdiction of the
subject matter, has jurisdiction of the parties, just the
fact that the Court got it wrong, even badly wrong,
doesn’t mean that the judgment is void. It’s not void.
All it means is you’ve got, to get relief, you’ve got to
appeal. You can’t, you cannot get relief after the time
for appeal has run. It doesn’t make it void, just -- so no
question about that.
[p.18]
MR. KIZER: And, similarly, Rule 60.02 (5) case law,
construing relief under that particular provision states
that this provision is construed very narrowly and for
the most extreme or extraordinary cases.

App. 67
And aside from those standards, we would contend
that the Court very correctly ruled that the Defendants
could not offer evidence at trial regarding a defense
that was not properly asserted.
Among other rules, as Your Honor knows, Rule 805
of the Rules of Civil Procedure requires a party to
specifically reference a statute if they’re going to rely
on that statute in defense of their case. That, of course,
was not done in this matter.
And, furthermore, plainly, as Your Honor observed
at trial, T.C.A. 47-96-10 has absolutely no application
to the facts of this case which dealt with foreclosure
and security interests in real property.
The Plaintiffs -- or excuse me, the Defendants have
not set forth or cited to any case that would support
their position that relief is appropriate under
Rule 60.02 (3) or (5) under the
[p.19]
circumstances where the judge exercised his discretion
and excluded evidence on the basis that the Court
herein excluded the evidence.
The opening the door concept that opposing counsel
contends justifies relief is clearly a doctrine that’s
limited in application under circumstances where a
party is able to use otherwise inadmissible evidence to
impeach another party who preemptively offers
contrary evidence.

App. 68
And Mr. Barnes acknowledges himself that this is
a doctrine that is really limited and has only routinely
been applied, if at all, in criminal matters.
Plainly the Defendants in this case were not trying
to impeach any witnesses. They were simply trying to
develop testimony to support defenses in matters that
they never pled or asserted.
And so in summation, Your Honor, the Court
correctly excluded the evidence at trial and did not
permit the Defendants to cross-examine the Plaintiff’s
witnesses and otherwise introduce other evidence
regarding affirmative defenses that they never
asserted.
Even if the Court was incorrect in this
[p.20]
regard, certainly, there’s was no abuse of discretion and
there was not an error that gave rise to a void
judgment or an otherwise exceptional circumstance
that would permit relief under Rule 60.02 or a new
trial under Rule 59.07 or that would justify the Court’s
alteration or amendment of the judgment under
Rule 59.04.
And, finally, Your Honor, the last argument that is
raised in the Plaintiff’s response deals with, even if
Your Honor abused its discretion, considering the
Defendant’s offer of proof, there was nothing that was
offered during the offer of proof that would ever come
to the presumption, of course, to which the Plaintiffs
are entitled to under 35-5-118(b).

App. 69
The presumption being that the foreclosure sales
price is equal to the fair market value of the properties
at the time of sale for the purposes of calculating the
amount of the deficiency balance owed.
The offer of proof is devoid of any particular value
opinion as to any value that any of test properties had
at the time of foreclosure. Therefore, even if Your
Honor was incorrect in excluding that testimony, we
now know that that
[p.21]
proffered evidence did not rebut the presumption and,
therefore, there would be no harmless error upon
further review.
For these reasons, Your Honor, we would
respectfully request that the Defendants’ motion under
Rule 60.02 to vacate the judgment be denied.
THE COURT: You get the last word, Counsel.
MR. BARNES: Thank you, Your Honor.
THE COURT: Very quickly.
MR. BARNES: Briefly. I think Your Honor hit the
nail on the head when you were asking counsel
questions about what is the practical effect of
everything.
And the case law supports the treating of this
motion as a Rule 59 motion and, again, in our
supplement, paragraph 16, we did cite about 59.07 as
grounds, which is a request for a new trial.

App. 70
THE COURT: Counsel, I’m with you on that. I will
treat it as a -- I went back and looked very quickly.
Under Rule 59, we got case law, for example, the
Tennessee Rules of Civil Procedure do not authorize,
quote, motions to reconsider and, therefore, such a
motion is construed to be a motion to alter or amend
[p.22]
pursuant to T.R.C.P. 59-04 and McCracken versus
Brentwood United Methodist Church, and there are
other cases. And then cases that hold that motions are
construed based upon their substance and not their
title.
MR. BARNES: I thought so, Your Honor, but I
never like to presume or assume anything.
THE COURT: And so I’m with you on that one.
MR. BARNES: Okay.
THE COURT: I’m with you on that one. Now, the
bigger issue here, the bigger issue, and, by the way,
also, of course, Rule 59, 59.05, upon initiative of the
Court, within 30 days after the entry of judgment, the
Court on its own initiative about may alter or amend
the judgment, or the Court may order a new trial for
any reason for which it might have granted a new trial
on motion of a party where no such motion has been
filed.
I could have done that. I can always do that within
30 days. So, I’m with you on that. Your motion is timely
as far as that goes.

App. 71
Now, the merits of this thing, to your point. You,
among other things, you say, look, Mr. Kizer testified,
offered testimony as to the
[p.23]
value or the amount, the price that the property
brought on the foreclosure sale and he did, he did do
that.
Well, as a matter of fact, he had to do that in a suit
for a deficiency. Obviously, if you’re going to get a
deficiency judgment, you got to know what the sales
price was as the beginning point, don’t you? You got to
know that.
Just the fact that a party testifies as to what the
sales price at the foreclosure sale, that does not
necessarily constitute evidence that that was, that the
sale price was fair and adequate, does it?
He comes in and says I offered it for sale on the
courthouse steps. It brought X number of dollars. As
far as that’s concerned, they did offer testimony as to
that.
But, once again, in a deficiency suit, part and parcel
of claiming a deficiency, you got to establish what it
brought at the foreclosure at sale and then you got to
establish what’s the outstanding balance on the note
and the difference between the two is the deficiency.
What you’re after here on the opening the door
argument is that by testifying that the

App. 72
[p.24]
property brought X number of dollars at the foreclosure
sale that opened the door on the issue of whether that
was a fair and adequate price for the property, and I
don’t think so. I don’t think it opens that door.
MR. BARNES: Yes and no. If I may interrupt, and
I’m sorry to interrupt. But not exactly.
The point I’m trying to make is that because he
opened the door on the subject matter of the sales, I
should have had been given the opportunity to crossexamine him as to that subject matter.
Now, whether an argument could be made
thereafter that based on that cross-examination that
those properties did not bring the proper price at sale,
that’s a different argument and a different procedure.
I’m talking about the very narrow issue of being
able to cross-examine him. They can object. They could
preserve the objections for the record. We can make the
argument later. But I’m talking about the very narrow
point in time -- and I know you have to leave.
THE COURT: No. Don’t worry about that.
[p.25]
I’ve got another 30 minutes, so...
MR. BARNES: Well, I don’t want to take away from
these other folks.
THE COURT: We’ll have time to do what we’ve got
to do.

App. 73
MR. BARNES: I’m talking about that window of
time from the time Mr. Kizer took the stand until the
time the objection was sustained and I was not allowed
to cross-examine. That’s it.
Arguments based upon what that cross-examination
may have elicited are for a later point in time. It may
be the case that Mr. Kizer’s testimony on crossexamination would have shown that they did do
everything right. We just don’t know that and we
weren’t given the opportunity to inquire about that.
And based upon what he said on cross-examination
or would have said, the bank could have made its
argument and I could have made my argument and
Your Honor could have decided accordingly.
The problem is the process was short-circuited
because I wasn’t allowed to cross-examine. That’s it.
That’s what this
[p.26]
motion is all about and that’s why we’re asking, as
Your Honor is treating it as a Rule 59 motion, for a new
trial to allow me to do that. That’s what the substance
of this motion is.
THE COURT: Well, thank you very much.
MR. BARNES: You’re welcome.
THE COURT: The motion will be overruled. This
was a case wherein the bank, BB&T, brought suit for
a deficiency judgment. The bank had held a trust deed
on some properties, foreclosed on the properties, and
the bank alleged that, okay, we foreclosed, conducted a

App. 74
foreclosure sale and at the foreclosure sale, the
properties brought less than the outstanding balance of
the indebtedness and, therefore, we’re entitled to a
deficiency judgment for the difference between the two.
The issue that this motion is aimed at is, and the
issue at the trial was whether or not from the
Defendant’s standpoint, the Hills, whether or not the
sale price at the foreclosure sale was a fair and
adequate sales price.
In other words, the Hills made the argument at the
trial that it was not a commercially reasonable sale,
quote/unquote. That term commercially reasonable
sale, of course, has
[p.27]
to do with sales under Article 9 of the Uniform
Commercial Code.
But the same kind of thing you can have with
respect to the sale of a piece of property, a piece of land,
which, of course, is not subject to the Uniform
Commercial Code, but you can have a similar kind of
claim.
We’ve got a statute in Title 35 of the Tennessee
Code that has to do specifically with suits for deficiency
judgments and claims that the property did not sell for
a fair and adequate price at the foreclosure sale.
So you got -- you got similar -- you have the
possibility of similar claims in cases involving
foreclosure on real estate as you have with the

App. 75
repossession and sale of personal property collateral
under Article 9 of the Uniform Commercial Code.
But what the Court held at the trial was you didn’t
plead, you didn’t plead that as a defense to this claim
for deficiency by the bank, you didn’t plead that there
was a quote/unquote commercially reasonable sale or
that the property, that there was some defect, formal
defect in the foreclosure proceedings or that the
property
[p.28]
brought less than a fair and adequate suit.
You didn’t plead that and you cannot, in as much as
you didn’t plead that, the Court held that you cannot go
into it on the day of the trial without, without notice to
the bank that, look, we rely on that theory.
We rely on that doctrine and particularly we rely on
the statute in Title 35 that allows you to assert that
kind of defense. The Court held that at the trial and I
thought it was correct at the time and I think it’s
correct today.
You can raise that kind of claim, all right, that kind
of defense, you can do that but you got to plead it. You
got to put the other side on notice that, that you are
raising that kind of claim.
Here’s the point. An attorney who conducts a
foreclosure sale such as Mr. Kizer here, he is an expert
about many things. He may not be an expert, and I
don’t know whether he is or not. He may be an expert
on real estate values. But he may not be either.

App. 76
The point is that he would certainly be entitled to
testify as to what was the sale price at the foreclosure
sale. He might not necessarily
[p.29]
be entitled to testify as to what a fair and adequate
price for the real estate was.
Some attorneys may be experts as to real estate
values. Others may not be. The point is, if you’re going
to raise that kind of issue, the bank, the secured party,
might reasonably want to call in an expert.
For example, a real estate appraiser. For example,
somebody from the bank who indeed is an expert on the
particular matter of real estate values and more
specifically the value of the real estate at issue.
So, back to the point. You can raise those kinds of
claims but the bank’s entitled to notice. They’re
entitled to have a pleading that tells them we’re raising
the issue of whether or not the sale was commercially
reasonable, quote/unquote, brought a fair and adequate
price at the sale.
That wasn’t done here so the Court ruled as it did at
the trial. And, like I say, I thought I was correct at the
time. I think I’m correct on that today.
And as to the matter of the cross-examining,
opening the door, well, certain

App. 77
[p.30]
things, generally speaking, you are not entitled to
examine or cross-examine upon an issue that’s not
raised by the pleadings.
You are entitled to examine or cross-examine on
most anything that’s raised by the pleadings but you
got to first raise it by the pleadings.
Were it otherwise, were it otherwise, you’d be
entitled to raise any theory, examine or cross-examine
about any theory without any notice to the other party.
For example, that would in effect do away with the
requirements of the Rules of Civil Procedure as to
pleadings, specifically affirmative defense, wouldn’t it?
That would do away with it, wouldn’t it?
If you’re entitled to cross-examine on a theory that
you have not asserted, then that’d do away with the
requirement that you got to plead affirmative defenses,
among other things.
But the rule in the Court’s mind is the same
affirmative defense. Plaintiffs are not entitled to
present evidence on theories that they have not pled.
Defense, defendants the same way. So, for those
reasons, the Court will overrule the
[p.31]
motion.
MR. BARNES: Thank you, Your Honor.
MR. JOHN KIZER: Thank you, Your Honor.

App. 78
(Hearing concluded at 11:10 a.m.)
[p.32]
CERTIFICATE
STATE OF TENNESSEE
COUNTY OF KNOX
I, Holly A. Klinger, Licensed Court Reporter and
Registered Professional Reporter, do hereby certify that
I reported in machine shorthand the above proceedings,
that the foregoing pages were transcribed under my
personal supervision and constitute a true and accurate
record of the proceedings.
I further certify that I am not an attorney or counsel
of any of the parties, nor an employee or relative of any
attorney or counsel connected with the action, nor
financially interested in the action.
Witness my hand and seal this the 13th day of
January, 2018.
____________________________
Holly A. Klinger, RPR
Tennessee LCR #704
Expiration Date: 06/30/2018

App. 79

APPENDIX F
IN THE CHANCERY COURT FOR
SEVIER COUNTY, TENNESSEE
No. 16-3-118
[Filed December 01, 2017]
________________________________
BRANCH BANKING AND
)
TRUST COMPANY
)
)
Plaintiff,
)
)
v.
)
)
WAYNE R. HILL, CORNELIA D. )
HILL, and RAINBOW RIDGE
)
RESORT, LLC,
)
)
Defendants.
)
________________________________ )
NOTICE OF ENTRY REQUESTED
ORDER AND JUDGMENT
This cause came on for hearing on November 14,
2017, upon the trial of the case. At the commencement
of the trial, the plaintiff announced that it was
voluntarily dismissing without prejudice the count
stated in its First Amended Complaint for the judicial
foreclosure of the deed of trust recorded in
Volume 2203, page 520 in the Sevier County Register’s

App. 80
Office (“the Deed of Trust”) and its action against Tyler
C. Huskey, Successor Trustee.
After the plaintiff rested its case, the defendants
moved for the entry of an involuntary dismissal with
prejudice pursuant to Rule 41.02 of the Tennessee
Rules of Civil Procedure, which was denied.
The defendants sought to cross examine the
plaintiff’s witnesses concerning the adequacy of the
foreclosure sales price and sought to introduce other
evidence concerning the adequacy of the foreclosure
sales price, citing T.C.A. § 47-9-610 et seq. and
T.C.A. § 35-5-118 as the basis therefor. The Court
sustained the plaintiff’s objections to the defendants’
cross examination of the plaintiff’s witnesses on such
issue and the defendants’ introduction of such evidence
on the basis that in their answer to the plaintiff’s First
Amended Complaint, the defendants had not pled or
asserted the inadequacy of the foreclosure sales price
and had not pled or asserted T.C.A. § 47-9-610 et seq.
and T.C.A. § 35-5-118, or otherwise placed those
matters at issue, and on the further basis that
T.C.A. § 47-9-610 et seq. has no application to the facts
of the case. The Court directed that an offer of proof
could be made by the defendants’ counsel after the
Court ruled.
At the conclusion of all proof and the arguments of
counsel, the Court rendered oral findings of fact and
conclusions of law, holding that defendants Wayne R.
Hill and Cornelia D. Hill are jointly and severally liable
to the plaintiff in the total amount of $1,180,223.77 on
their notes and guaranty agreements and for the
plaintiff’s attorney’s fees, and that defendant Rainbow

App. 81
Ridge Resort, LLC is liable to the plaintiff in the
amount of $144,848.30 on its note. In accordance
therewith;
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED that pursuant to Rule 41.01 of the
Tennessee Rules of Civil Procedure, the plaintiff’s
action for the judicial foreclosure of the Deed of Trust
and the plaintiff’s action against Tyler C. Huskey,
Successor Trustee, are dismissed without prejudice to
the refiling of the same.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that Branch Banking and Trust Company,
the plaintiff herein, is hereby granted and shall have
and recover a judgment against defendants Wayne R.
Hill and Cornelia D. Hill, jointly and severally, in the
amount of $1,180,223.77, for the collection of which
execution may issue if necessary.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that Branch Banking and Trust Company,
the plaintiff herein, is hereby granted and shall have
and recover a judgment against defendant Rainbow
Ridge Resort, LLC in the amount of $144,848.30, for
the collection of which execution may issue if
necessary.
The costs of this cause are taxed and assessed
against the defendants. The Clerk & Master may mail
the bill of costs to Andrew E. Farmer, counsel for the
defendants, whose address appears below.
ENTER, this 1 day of Dec. , 2017.

App. 82
/s/
CHANCELOR
APPROVED FOR ENTRY:
/s/
W. Morris Kizer
(BPR No. 1571)
Gentry, Tipton & McLemore, P.C.
P.O. Box 1990
Knoxville, Tennessee 37901
(865) 525-5300
Attorney for Branch Banking and
Trust Company
/s/
Andrew E. Farmer for John Higgins, Attorney of
Record for [Rainbow Ridge Resort, LLC, Wayne Hill
and Cornelia Hill]
(BPR No. 26823)
Law Offices of Andrew E. Farmer
121 Court Avenue
Sevierville, Tennessee 37862
865-428-6737
Attorney for Rainbow Ridge Resort, LLC,
Wayne Hill and Cornelia Hill
/s/
w/ perm AF
W. Jeffrey Barnes
(FL Bar No. 746479)
W. J. Barnes, P.A.
1515 North Federal Highway
Suite 300
Boca Raton, Florida 33432
561-864-1067

App. 83
Attorney for Rainbow Ridge Resort, LLC,
Wayne Hill and Cornelia Hill

App. 84

APPENDIX G
IN THE CHANCERY COURT FOR
SEVIER COUNTY, TENNESSEE
No.16-3-118
[Filed November 14, 2017]
____________________________________________
BRANCH BANKING AND TRUST COMPANY, )
)
Plaintiff,
)
)
v.
)
)
WAYNE R. HILL, et al.
)
)
Defendants,
)
)
and
)
)
CARROLL HARRELLSON,
)
)
Defendant/ Counter-Plaintiff/
)
Cross-Plaintiff/ Third-Party Plaintiff
)
)
)
v.
)
)
RAINBOW RIDGE RESORT LLC,
)
RAINBOW RIDGE, LLC,
)
BB&T COLLATERAL SERVICE
)
CORPORATION,
)

App. 85
BRANCH BANKING AND TRUST COMPANY,
SYKES & WYNN, PLLC,
WAYNE HILL, CORNELIA D. HILL,
MORRIS KIZER, and APRIL BRYAN as
representative of the Estates of
FLOYD LAFOLLETTE, EDITH LAFOLLETTE
and CAROLDENE LAFOLLETTE WHITE.

)
)
)
)
)
)
)
)
Counter-Defendants/ Cross-Defendants/
)
Third-Party Defendants.
)
____________________________________________ )
AMENDED ORDER AS TO REAL PROPERTY
OF CARROLL HARRELLSON
Came the parties indicated below, by and through
counsel, and announced their agreement to the Court
regarding the Crossclaim, Counterclaim, and Third
Party Claim of Carroll Harrellson (“Harrellson”).
For the purposes of this Agreed Order, the defined
term “Property” shall mean and refer to the following
improved real property:
SITUATE, LYING and BEING in the Fifth (5th)
Civil District of Sevier County, Tennessee, being
known and designated as Unit 13 of Rainbow
Ridge, Phase 2, a Planned Unit
Development, as shown on plat of record in
Large Map Book 9, Page 76, Register’s Office,
Sevier County, Tennessee, to which map specific
reference is hereby made for a more particular
description.

App. 86
TOGETHER with the right to the joint use of
the 25 foot wide right of way as set out in deed of
record in Book 1373, Page 732, Register’s
Office, Sevier County, Tennessee.
The defined term “Harrellson Deed” shall mean and
refer to that certain General Warranty Deed from
Rainbow Ridge, LLC to Carroll Harrellson, married,
dated February 15, 2008, of record at Book 3023, page
242 in the Sevier County Register of Deeds Office.
The defined term “BB&T Deed of Trust” shall mean
and refer to that certain Tennessee Deed of Trust,
Security Agreement, and Fixture Filing from Rainbow
Ridge Resort, LLC, to BB&T Collateral Service
Corporation, as Trustee, dated March 30, 2007, and of
record at Book 2787, Page 460, in the Sevier County
Register of Deeds Office.
The defined term “LaFollette Deed of Trust” shall
mean and refer to all of the following: Deed of Trust
from Wayne Hill and wife, Cornelia D. Hill to Sykes &
Wynn, PLLC, as Trustee, dated March 17, 2004, and of
record at Book 2005, Page 511, in the Sevier County
Register of Deeds Office; Deed of Trust from Wayne
Hill and wife, Cornelia D. Hill to Sykes & Wynn, PLLC,
as Trustee, dated July 26, 2004, and of record at Book
2071, Page 208, in the Sevier County Register of
Deeds Office; and Deed of Trust from Wayne Hill and
wife, Cornelia D. Hill to Sykes & Wynn, PLLC, as
Trustee, dated December 31, 2004, and of record at
Book 2154, Page 201, in the Sevier County Register
of Deeds Office.

App. 87
The defined term “Phase I Property” shall mean and
refer to the following real property: Situate, lying and
being in the 5th Civil District of Sevier County,
Tennessee, known as Unit 13 of Rainbow Ridge, a
Planned Unit Development, as shown on plat of record
in Large Map Book 7, Page 181, Register of Deeds
Office, Sevier County, Tennessee, to which map specific
reference is hereby made for a more particular
description.
It is therefore, ORDERED ADJUDGED and
DECREED as follows:
1.
That fee simple title and ownership to the
Property shall be and hereby is quieted and vested
solely in Harrellson.
2.
That the Harrellson Deed is hereby corrected
and reformed to reference and provide that it conveys
the Property, and not the Phase I Property, to
Harrellson.
3.
That the Harrellson Deed is further corrected
and reformed by the deletion of the following sentence
from the Harrellson Deed: “Subject to Declaration of
Covenants, Conditions, Restrictions, and Easements for
Rainbow Ridge, of record in Book 2248, Page 306”.
4.
That the BB&T Deed of Trust and the lien of
the BB&T Deed of Trust, as well as any other lien of
record by BB&T Collateral Service Corporation and/or
Branch Banking and Trust Company, are released in
full with respect to the Property, but no further or
otherwise.

App. 88
5.
That the LaFollette Deed of Trust and the
lien of the LaFollette Deed of Trust is released in full
with respect to the Property, but no further or
otherwise.
6.
That all parties other than Harrellson and all
others claiming by, through or under him, shall have
no right, title or interest of any kind in and to the
Property.
7.
That fee simple title and ownership to the
Phase I Property shall be and hereby is divested out of
Harrellson.
8.
That this Agreed Order may be recorded in
the Sevier County Register of Deeds Office and shall
serve to vest fee simple title and ownership of the
Property solely and exclusively in Harrellson, and to
divest title and ownership of Phase I Property from
Harrellson.
9.
That Rainbow Ridge, LLC, having been
served with process, failed to file an answer or other
responsive pleading to the Answer, Counterclaim,
Cross-Claim, and Third-Party Complaint of Carroll
Harrellson; accordingly, judgment by default for the
relief and remedies specified herein is entered against
Rainbow Ridge, LLC.
10.
That the complaint filed by Branch Banking
and Trust Company is voluntarily dismissed as to
Harrellson, and only Harrellson.
11.
That the Court finds there is no just reason
for delay and it is, therefore, directed that the
Clerk & Master shall enter this Agreed Order pursuant

App. 89
to Rule 54.02 of the Tennessee Rules of Civil Procedure
as a final judgment with respect to the matters set
forth herein.
SO ORDERED this 14 day of Nov. , 2017.
/s/
CHANCELLOR
APPROVED FOR ENTRY:
/s/
Oliver D. Adams (BPR # 026164)
Bart C. Williams (BPR # 028290)
HODGES, DOUGHTY & CARSON, PLLC
617 Main Street
P. O. Box 869
Knoxville, TN 37901-0869
(865) 292-2307
Attorney for Carroll Harrellson
/s/
Morris Kizer (BPR # 001571)
GENTRY, TIPTON & MCLEMORE
900 S. Gay St., St. 2300
Knoxville, TN 37902
(865) 525-5300
As Successor Trustee and attorney for Branch Banking
and Trust Company, BB&T Collateral Service
Corporation
/s/
John Frank Higgins (BPR #026845)
1230 Second Avenue South
Nashville, TN 37210
(615) 496-1127

App. 90
Jeff Barnes, Esq. (FBN No. 746479)
W.J. Barnes, P.A.
1515 North Federal Highway, Suite 300
Boca Raton, FL 33432
(561) 864-1067
Attorneys for Wayne R. Hill, Cornelia D. Hill, and
Rainbow Ridge Resort, LLC
/s/
Randolph Sykes (BPR # 000741)
Sykes & Wynn, PLLC
113 Joy Street
Sevierville, TN 37862
(865) 453-7118
Attorney for Sykes & Wynn, PLLC
/s/
Charles S. Sexton (BPR # 006501)
109 Parkway, Suite 2A
Sevierville, TN 37862
(865) 543-4125
Attorney for APRIL BRYAN, representative of the
Estates of FLOYD LAFOLLETTE, EDITH LAFOLLETTE
and CAROLDENE LAFOLLETTE WHITE.
/s/
Tyler C. Huskey (BPR # 021535)
GENTRY, TIPTON & MCLEMORE
900 S. Gay St., St. 2300
Knoxville, TN 37902
(865) 525-5300
As Successor Trustee
[ *** Certificate of Service Omitted
for Purposes of this Appendix *** ]

App. 91

APPENDIX H
U.S. Constitutional Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress
of grievances.
U.S. Constitutional Amendment XIV
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
Section 2.
Representatives shall be apportioned among the
several states according to their respective numbers,
counting the whole number of persons in each state,
excluding Indians not taxed. But when the right to vote
at any election for the choice of electors for President
and Vice President of the United States,
Representatives in Congress, the executive and judicial

App. 92
officers of a state, or the members of the legislature
thereof, is denied to any of the male inhabitants of such
state, being twenty-one years of age, and citizens of the
United States, or in any way abridged, except for
participation in rebellion, or other crime, the basis of
representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such state.
Section 3.
No person shall be a Senator or Representative in
Congress, or elector of President and Vice President, or
hold any office, civil or military, under the United
States, or under any state, who, having previously
taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any
state legislature, or as an executive or judicial officer of
any state, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of
two-thirds of each House, remove such disability.
Section 4.
The validity of the public debt of the United States,
authorized by law, including debts incurred for
payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
state shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or

App. 93
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5.
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.
Tennessee Code Title 35
Fiduciaries and Trust Estates § 35-5-118
(a)
In an action brought by a creditor to recover a
balance still owing on an indebtedness after a trustee’s
or foreclosure sale of real property secured by a deed of
trust or mortgage, the creditor shall be entitled to a
deficiency judgment in an amount sufficient to satisfy
fully the indebtedness.
(b)
In all such actions, absent a showing of fraud,
collusion, misconduct, or irregularity in the sale
process, the deficiency judgment shall be for the total
amount of indebtedness prior to the sale plus the costs
of the foreclosure and sale, less the fair market value of
the property at the time of the sale. The creditor shall
be entitled to a rebuttable prima facie presumption
that the sale price of the property is equal to the fair
market value of the property at the time of the sale.
(c)
To overcome the presumption set forth in
subsection (b), the debtor must prove by a
preponderance of the evidence that the property sold
for an amount materially less than the fair market
value of property at the time of the foreclosure sale. If
the debtor overcomes the presumption, the deficiency
shall be the total amount of the indebtedness prior to
the sale plus the costs of the foreclosure and sale, less

App. 94
the fair market value of the property at the time of the
sale as determined by the court.
(d)(1) Any action for a deficiency judgment under
this section shall be brought not later than the
earlier of:
(A)
Two (2) years after the date of the
trustee’s or foreclosure sale, exclusive of any
period of time in which a petition for
bankruptcy is pending; or
(B)
The time for enforcing the
indebtedness as provided for under
§§ 28-1-102 and 28-2-111.
(2)
Nothing contained in this section shall be
construed as limiting a person entitled to bring
such action from electing to sue on an
indebtedness in lieu of, prior to, or
contemporaneously with enforcement of a deed
of trust or mortgage.

App. 95

APPENDIX I
IN THE SUPREME COURT OF TENNESSEE
No.: E2018-00232-COA-R3-CV
[Filed April 26, 2019]
_____________________________________________
BRANCH BANKING AND TRUST COMPANY )
and CORNELIA D. HILL, his wife,
)
)
Plaintiff/Appellee,
)
)
v.
)
)
WAYNE R. HILL, CORNELIA D. HILL,
)
AND RAINBOW RIDGE RESORT, LLC.
)
)
Defendants/Appellants )
____________________________________________ )
APPLICATION FOR PERMISSION TO APPEAL
Appellants, through undersigned counsel and
pursuant to Tenn.R.App.P. 11, seek application to this
Court for permission to appeal the final decision of the
Court of Appeals of Tennessee at Knoxville (hereafter
the “COA”) to this Court, and state, pursuant to
Tenn.R.App.P. 11(b), the following:

App. 96
1. Date on Which the Judgment was Entered and
Whether a Timely Petition for Rehearing Filed
The COA’s Opinion were entered and filed on
February 28, 2019, with a copy thereof being attached
to this Application. No Petition for Rehearing was filed
in the COA.
2. Questions Presented for Review and Applicable
Standard of Review
This Application arises out of the COA’s affirmance
of the trial court’s Final Judgment in a commercial
deficiency and personal guarantor liability action. The
COA specifically found that this is a case of first
impression on the specific issue of whether, in
interpreting Tenn. Code Ann. Sec. 35-5-118, the
debtor’s allegation of an inadequate foreclosure sales
price under the debtor’s statutory standard of
“materially less” constitutes an affirmative defense
(Opinion, page 15). The COA acknowledged that Sec.
35-5-118 “does not expressly set forth inadequacy of the
foreclosure sales price as an affirmative defense”
(Opinion, page 14).
The COA determined that the inadequacy of the
foreclosure sales price under Sec. 35-5-118 is an
affirmative defense that must either be properly pled
prior to trial or tried by implied consent (Opinion,
page 17). The COA acknowledged that the “traditional”
way for the defendant to defeat the plaintiff’s claim is
by the assertion of an affirmative defense (Opinion,
page 14). The COA did not, however, take the position
that the “traditional” manner of asserting the defense
is the exclusive manner in which to do so.

App. 97
In making its determination, the COA committed
two errors: first, by making inadequacy of foreclosure
sale price an affirmative defense under the Statute
(Sec. 35-5-118) when the Statute contains no such
provision, the COA impermissibly added language to a
statute which it cannot do as creating statutes is
strictly the province of the legislature. This Court has
held that a court is not free to add language to a
statute nor can it vary the language of a statute.
Reunions v. Jackson-Madison Cnty. Gen. Hosp., 549
S.W.3d 77, 87 (Tenn. 2018).
The COA also did not provide for the assertion of
the defense on cross-examination after the plaintiff
opens the door on the subject of foreclosure sales price,
which determination runs afoul of a party’s
Constitutional right to cross-examination. This Court
held in State v. Echols, 382 S.W.3d 266-284-85, as
follows:
Cross-examination is a fundamental right
afforded by the Confrontation Clause of the
Sixth Amendment. A component part of this
constitutional protection is the right to establish
or to otherwise impeach the credibility of a
witness. … The trial court abuses its discretion
by unreasonably restricting a defendant’s right
to cross-examine a witness against him.
There is nothing in the Constitution which confines
this right to only criminal matters. There is no issue
that Appellee’s witness Kizer was “against” Appellants,
as by his testimony he sought to attach a combined
liability of over $1,325,000.00 to Appellants. The COA’s
affirmance of the trial court’s decision to preclude

App. 98
Appellants from cross-examination of Appellee’s
witness Kizer constitutes an unreasonable restriction
upon Appellants’ Constitutional rights.
The questions presented for review herein are thus:
(a)
whether the COA impermissibly added
language to a Statute;
(b)
whether, in interpreting Tenn. Code Ann.
Sec. 35-5-118, the debtor’s allegation of an inadequate
foreclosure sales price under the debtor’s statutory
standard of “materially less” constitutes an affirmative
defense;
(c)
whether the COA’s interpretation of the
manner by which the defense of inadequacy of
foreclosure sales price is raised precludes the assertion
of the defense as part of cross-examination after the
plaintiff raises the issue in its case-in-chief (especially
as the plaintiff [Appellee here] had knowledge, prior to
trial, that it intended to present evidence as to
foreclosure sales price); and
(d)
Whether the COA improperly restricted
cross-examination and the application of the principle
of “opening the door” to only criminal cases where there
is no decisional law which does so and where the
evidence proffered by Appellants was relevant to the
issue of the adequacy of foreclosure sales price which
issue was raised by Appellee’s trial witness.
The applicable standard for review by this Court is
presented in the discussion of the issues in section 4. of
this Application.

App. 99
3. Facts Relevant to Questions Presented
In a suit for a deficiency judgment, “Tennessee
courts apply Tennessee Code Annotated Section 35-5118”. Greenbank v. Sterling Ventures L.L.C.,
No. M2012-01312-COA-R3-CV (Tenn. App.
2012)(emphasis added). If a creditor forecloses upon the
security interest in the collateral and conducts a
commercially unreasonable sale, there is a
presumption that the debtor is damaged to the extent
of the deficiency claimed. It is the burden of the
secured party to rebut this presumption, and the
failure to rebut the presumption with evidence of fair
market value in the record results in denial of the
secured party’s claims for a deficiency judgment. R&J
of Tennessee, Inc. v. Blankenship-Melton, 166 S.W.3d
195, 210 (TN 2004), reversing trial court’s entry of a
deficiency judgment and citing Decatur County Bank v.
Smith, No. CAW1999-02022-COA-R3-CV, 1999 WL
1336042 at *3 (Tenn. App. Dec. 27, 1999) and In Re
Frazier, 93 B.R. 366, 372 (Bankr. M.D. Tenn. 1988).
Appellee presented a witness at trial (Morris Kizer,
who was: (a) Plaintiff’s counsel; (b) the attorney who
conducted the foreclosure sales; (c) Plaintiff’s fact
witness at trial as to the foreclosure sales; and (d) was
the Plaintiff’s “expert witness”) who testified as to the
foreclosure sales and prices obtained for the properties
sold, thus opening the door as to issues surrounding
the manner by which the prices were obtained. The
COA’s affirmance of the trial court’s ruling results in
an impermissible preclusion of the right to crossexamination and a preclusion from presenting rebuttal

App. 100
evidence of fair market value of the properties (which
properties had been developed by Appellants).
The COA affirmed the lower court’s ruling that
evidence of the conduct of the foreclosure sales and the
adequacy of the prices obtained for the properties was
inadmissible. This Court has held that that even if
evidence is inadmissible, a party may open the door to
admission of that evidence, and a party commonly
opens the door by raising the subject of that evidence at
trial. State v. Gomez, 367 S.W.3d 237, 246 (Tenn. 2012).
Tennessee law provides that after a witness has
“opened the door”, an opposing party should introduce
evidence on the same subject matter that permits a
party to respond to the act of another party by
introducing otherwise inadmissible evidence. State v.
Burton, M2016-00754-CCA-R3-CD (Tenn.App.
2017)(emphasis supplied).
This Court has held that evidence introduced at
trial takes the form of testimony of live witnesses who
are subject to cross-examination. Regions Bank v.
Thomas, 532 S.W.3d 330, 352 (Tenn. 2017) citing
Nagerajan v. Terry, 151 S.W.3d 166, 178 (Tenn.App.
2003).
This Court has also held that “[w]hen a party
raises a subject at trial, the party ‘expand[s] the realm
of relevance’; “the opposing party may be permitted to
present evidence on the subject”; and further that
“‘opening the door’ is an equitable principle that
permits a party to respond to an act of another party by
introducing otherwise inadmissible evidence”. State v.
Gomez, 367 S.W.3d 237, 246 (Tenn. 2012).
The COA’s affirmance of the trial court’s ruling is in
direct contradiction to these established principles of

App. 101
Tennessee law enunciated by this Court which are
grounded upon principles of due process.
The COA’s opinion fails to fully address Appellee’s
failure to present any evidence of providing notice of
disposition of the collateral to Appellants. On their
offer of proof, Appellants Wayne Hill and Cornelia Hill
testified that they did not receive any notice of
disposition of the collateral. The lower court took the
position that Appellants waived their right to contest
any issues as to the sale due to the claimed failure to
raise such issues in their Affirmative Defenses.
A debtor may waive the right to notification of
disposition of the collateral only by an agreement to
that effect entered into and authenticated after default.
R&J of Tennessee, Inc. v. Blankenship-Melton, 166
S.W. 3d 195, 200-01, citing Tenn. Code Annotated sec.
47-9-611. Appellee presented no evidence of any such
agreement. Further, when a secured party undertakes
to dispose of the collateral at a public sale, advertising
of some sort should be conducted in order to increase
competitive bidding and maximize proceeds. R&J,
supra at 209, citing multiple cases as to insufficiency of
notice and improper valuation of the collateral by the
creditor instead of seeking an independent appraisal.
The COA’s opinion did not address these issues
although they were briefed.
4. Reasons Supporting Review
Tenn.R.App.P. 11(a) sets forth a non-exclusive list
of the character of reasons that will be considered in
determining whether to grant permission to appeal,
although the Rule specifically provides that the

App. 102
enumerated factors are neither controlling nor fully
measure the court’s discretion. Three of these reasons
apply here: (a) the need to secure uniformity of decision
in view of the Court of Appeals’ admission that this is
a case of first impression and as the COA’s Opinion
contradicts established principles of law; (2) the need
to secure settlement of important questions of law in
view of the Court of Appeals’ admission that this is a
case of first impression and as the COA’s affirmance of
the trial court contradicts established principles of law
of this Court; and (3) the need to secure settlement of
questions of public interest.
The COA’s Opinion admits that a trial court abuses
its discretion when it applies an incorrect legal
standard, reaches a decision which is illogical, bases its
decision on a clearly erroneous assessment of the
evidence, or employs reasoning that causes an injustice
to the complaining party (Opinion, page 10, citing In Re
Estate of Greenamyre. 219 S.W.3d 877, 886
(Tenn.Ct.App. 2005). This Court has likewise held. Doe
1 ex rel. Doe 1 v. Roman Catholic Diocese of Nashville,
154 S.W.3d 22, 42 (Tenn. 2005).
The COA’s affirmance, which strains to create an
exception to a statute and restrict the Constitutional
right to cross-examination, results in the affirmance of
a demonstrated abuse of discretion by the trial court
which reached a decision which is illogical as it
contradicts established principles of law of this Court,
which thus resulted in an injustice to Appellants who
respectfully seek permission to appeal this matter in
this Court.

App. 103
Dated April 26, 2019.
Respectfully Submitted
_________________________
John Frank Higgins (No. 26845)
1230 Second Avenue South
Nashville, TN 37210
(615) 496-1127 (Tel)
(615)-255-6037 (Fax)
W. Jeffrey Barnes
W.J. Barnes, P.A.
1515 Federal Highway Suite 33432
(561) 864-1067 (Tel)
(561) 338-4840 (Fax)
Attorney for Rainbow Ridge
Resort, LLC
Wayne and Cornelia Hill
(Admitted PHV in COA)
CERTIFICATE OF SERVICE
I hereby certify that on this 26th day of April, 2019,
that I am causing the foregoing to be served by certified
mail with electronic tracking to the following:
W. Morris Kizer (BPR. No. 1571)
Gentry, Tipton, & McLemore, P.C.
P.O. Box 1990
Knoxville, Tennessee 37901
Attorney for Branch Banking and
Trust Company (Appellee)
_________________________
John Higgins

